OFFICE OF INSPECTOR GENERAL
 DEPARTMENT OF VETERANS AFFAIRS



   SEMIANNUAL REPORT TO CONGRESS
  APRIL 1, 2005 - SEPTEMBER 30, 2005
                                                     FOREWORD




This Semiannual Report to Congress focuses on the Department of Veterans Affairs (VA)
Ofﬁce of Inspector General (OIG) accomplishments for the period of April 1, 2005, through
September 30, 2005, and provides a summary of the entire ﬁscal year. We issue this report in
accordance with the Inspector General Act of 1978, as amended.
During this reporting period, a total of 99 reports on VA programs and operations resulted
in systemic improvements and increased efﬁciencies in areas of medical care, beneﬁts
administration, procurement, ﬁnancial management, information technology, and facilities
management. Audits, investigations, and other reviews identiﬁed over $20 billion in monetary
beneﬁts, for an OIG return of $557 for every dollar expended. One signiﬁcant national review
involved the consistency of VA disability compensation payments made to veterans in different
states. The report found insufﬁcient veriﬁcation of claimed service-related stressor events in the
rapidly-growing post-traumatic stress disorder (PTSD) category and made recommendations to
improve beneﬁts processing. To demonstrate the potential consequence of the lack of adequate
evidence to support a PTSD claim, the error rate we found equates to questionable compensation
payments over the lifetimes of the veterans estimated at $19.8 billion.
Our criminal investigators closed 574 investigations involving a wide variety of criminal
activity directed at VA personnel, patients, programs or operations. During this period, special
agents conducted investigations that led to 675 arrests, indictments, criminal complaints,
convictions, and pretrial diversions. They also produced $261.5 million in dollar impact to
VA. In one signiﬁcant case, an attorney who withheld real estate proceeds from over 50 victims
was sentenced to over 6 years’ incarceration and ordered to pay over $2 million in restitution.
Additionally, the efforts of our agents and support staff led to the apprehension of 273 fugitive
felons nationwide.
Our health care inspectors focused on quality of care issues in VA. Visiting a number of facilities
to respond to congressional and other requests concerning health care-related matters, inspectors
made recommendations to improve the standard of care, ensure prompt and effective treatment,
reduce waiting times, improve supervision of resident physicians, and protect patients’ safety.
OIG’s ongoing Combined Assessment Program (CAP) reviews the quality, efﬁciency, and
effectiveness of VA facilities. Auditors, investigators, and health care inspectors collaborate
to assess key operations at VA medical and beneﬁt facilities on a cyclical basis. The 30 CAP
reviews we completed this period highlighted numerous opportunities for improvement of
quality of care, management controls, and fraud prevention.
We will continue to partner with the VA Secretary and Congress to prevent fraud, waste, and
abuse in VA programs and operations, maximizing VA’s effectiveness in providing beneﬁts to our
Nation’s veterans.




JON A. WOODITCH
Acting Inspector General
Blank Page
                                  TABLE OF CONTENTS


                                                                                                      Page

HIGHLIGHTS OF OIG OPERATIONS ........................................................... 5

VA AND OIG MISSION, ORGANIZATION, AND RESOURCES......................... 7

COMBINED ASSESSMENT PROGRAM ........................................................ 13

OFFICE OF INVESTIGATIONS................................................................... 21

         Criminal Investigations Division .......................................................... 21 

         Administrative Investigations Division ................................................. 32 

         Analysis and Oversight Division .......................................................... 33 

OFFICE OF AUDIT .................................................................................... 35

         Veterans Health Administration .......................................................... 36 

         Veterans Beneﬁts Administration ........................................................ 37 

         Ofﬁce of Management ....................................................................... 37 

         Multiple Ofﬁces Action ....................................................................... 38

OFFICE OF HEALTHCARE INSPECTIONS ................................................... 41

         Veterans Health Administration .......................................................... 42

OFFICE OF MANAGEMENT AND ADMINISTRATION ................................... 49

         Hotline Division................................................................................ 49 

         Operational Support Division.............................................................. 52 

         Information Technology and Data Analysis Division ............................... 53 

         Financial and Administrative Support Division....................................... 54 

OTHER SIGNIFICANT OIG ACTIVITIES..................................................... 57

APPENDIX A - REVIEWS BY OIG STAFF .................................................... 61

APPENDIX B - OIG REPORTS UNIMPLEMENTED FOR OVER 1 YEAR ........... 71

APPENDIX C - INSPECTOR GENERAL ACT REPORTING REQUIREMENTS.... 83

APPENDIX D - VA OIG PERFORMANCE REPORT FY 2005........................... 89

APPENDIX E - OIG OPERATIONS PHONE LIST .......................................... 91

APPENDIX F - GLOSSARY ......................................................................... 93

Blank Page
                 HIGHLIGHTS OF OIG OPERATIONS

This semiannual report highlights the activities and accomplishments of the Department of
Veterans Affairs (VA), Ofﬁce of Inspector General (OIG) for the period ending September 30,
2005. The following statistical data highlights OIG activities and accomplishments during the
entire ﬁscal year (FY).
                                                                                          Reporting Period        FY 2005

DOLLAR IMPACT (Dollars in Millions)
      Better Use of Funds ................................................................... $19,891.3           $21,451.5
      Fines, Penalties, Restitutions, and Civil Judgments ................................. $6.6                      $13.8
      Fugitive Felon Program .................................................................. $227.6               $279.4
      Dollar Recoveries .............................................................................. $3.8           $36.0
      Savings and Cost Avoidance ............................................................ $23.5                   $78.3
      Questioned Costs .............................................................................. $1.2             $3.6

RETURN ON INVESTMENT
      Dollar Impact ($20,154) / Cost of OIG Operations ($36.2) .................... 557:1
      Dollar Impact ($21,863) / Cost of OIG Operations ($70.2) ............................                          311:1

OTHER IMPACT
      Arrests ............................................................................................. 327        593
      Indictments ....................................................................................... 155          336
      Criminal Complaints (new measure this period) ........................................25                          25
      Convictions ....................................................................................... 149          327
      Pretrial Diversions ................................................................................19            39
      Fugitive Felon Apprehensions ............................................................... 273                 525
      Administrative Sanctions ..................................................................... 229             1,803

ACTIVITIES
Reports Issued
    Combined Assessment Program (CAP) Reviews ........................................30                                65
    CAP Summary Reviews .......................................................................... 0                     2
    Joint Review ......................................................................................... 0             1
    Audits.................................................................................................. 8          37
    Contract Reviews .................................................................................47                85
    Healthcare Inspections ........................................................................... 8                23
    Administrative Investigations .................................................................. 6                  11
Investigative Cases
     Opened............................................................................................. 590         1,116
     Closed .............................................................................................. 574       1,076
Healthcare Inspections Activities
     Clinical Consultations ............................................................................ 6              12
Hotline Activities
      Contacts ........................................................................................ 7,902       14,683
      Cases Opened.................................................................................... 568           1,020
      Cases Closed ..................................................................................... 462           969
Blank Page
VA AND OIG MISSION, ORGANIZATION,
AND RESOURCES

The Department of
Veterans Affairs
Background

In one form or another, American governments
have provided veterans beneﬁts since
before the Revolutionary War. VA’s historic
predecessor agencies demonstrate our
Nation’s long commitment to veterans. The
Veterans Administration was founded in 1930,
when Public Law 71-536 consolidated the
Veterans’ Bureau, the Bureau of Pensions, and                      VA Central Ofﬁce
                                                               810 Vermont Avenue, NW
the National Home for Disabled Volunteer                           Washington, DC
Soldiers. The Department of Veterans Affairs
was established on March 15, 1989, by Public         Organization
Law 100-527, which elevated the Veterans
Administration, an independent agency, to            Three Under Secretaries head these
Cabinet-level status.                                administrations that serve veterans:
                                                        •	 Veterans Health Administration (VHA)
Mission                                                    provides health care.
VA’s motto comes from Abraham Lincoln’s                 •	 Veterans Beneﬁts Administration (VBA)
second inaugural address, given March 4,                   provides income and readjustment
1865, “to care for him who shall have borne                beneﬁts.
the battle and for his widow and his orphan.”           •	 National Cemetery Administration (NCA)
These words are inscribed on large plaques on              provides interment and memorial beneﬁts.
the front of the VA Central Ofﬁce building on
Vermont Avenue in Washington, DC.                   To support these services and beneﬁts, there
                                                    are six Assistant Secretaries:
The Department’s mission is to serve
America’s veterans and their families with              •	 Management (Budget, Finance, and
dignity and compassion and to be their                     Acquisition and Materiel Management).
principal advocate in ensuring that they receive        •	 Ofﬁce of Information and Technology.
the care, support, and recognition earned in
service to our Nation.                                  •	 Policy, Planning, and Preparedness
                                                           (Policy, Planning, and Security and Law
                                                           Enforcement).
                                                   7

VA and OIG Mission, Organization, and Resources


  •	 Human Resources and Administration            and 916 outpatient clinics (including hospital
     (Diversity Management and Equal               clinics). In addition, VHA is funded at over
     Employment Opportunity, Human                 $698 million for capital projects and the state
     Resources Management and Labor                extended care grant program.
     Relations, Administration, and Resolution
     Management).                                  Veterans beneﬁts are funded at $37.3 billion
                                                   in FY 2005, about 55 percent of VA’s budget.
  •	 Public and Intergovernmental Affairs.
                                                   Approximately 12,700 VBA employees at
  •	 Congressional and Legislative Affairs.        57 VAROs provide beneﬁts to veterans and
                                                   their families. Almost 3 million veterans
In addition to VA’s OIG, other staff               and their beneﬁciaries receive compensation
ofﬁces providing support to the Secretary          beneﬁts valued at $28.8 billion. Also, $3.4
include the Board of Contract Appeals, the         billion in pension beneﬁts are provided to
Board of Veterans’ Appeals, the Ofﬁce of           approximately 546,000 veterans and survivors.
General Counsel, the Ofﬁce of Small and            VA life insurance programs insure 7.3 million
Disadvantaged Business Utilization, the            lives, with policies totaling $1.1 trillion.
Center for Minority Veterans, the Center for       Approximately 160,000 home loans will
Women Veterans, the Ofﬁce of Employment            be guaranteed in FY 2005, with a value of
Discrimination Complaint Adjudication,             approximately $23.2 billion.
and the Ofﬁce of Regulation Policy and
Management.                                        NCA operates and maintains 121 national
                                                   cemeteries and 33 related installations and
Resources                                          employs over 1,500 staff in FY 2005. NCA
                                                   operations and capital funding and all of VA’s
While most Americans recognize VA as a             burial beneﬁts account for approximately
Government agency, few realize that it is the      $429 million of VA’s budget. Interments in
second largest Federal employer. For FY 2005,      VA cemeteries increase each year, with 93,000
VA has approximately 222,000 employees and         for FY 2005 and approximately 363,000
a $69 billion budget. There are an estimated       headstones and markers will be furnished for
24.8 million living veterans. To serve our         veterans and their eligible dependents in VA
Nation’s veterans, VA maintains facilities         and other Federal cemeteries, state veterans’
in every state, the District of Columbia, the      cemeteries, and private cemeteries.
Commonwealth of Puerto Rico, Guam, and the
Philippines.                                        VA Ofﬁce of Inspector
                                                    General
Approximately 203,000 of VA’s employees
work in VHA. Health care is funded at over          Background
$30.8 billion in FY 2005, approximately 45
percent of VA’s budget. VHA provides care           VA’s OIG was administratively established
to an average of 60,000 inpatients daily.           on January 1, 1978, to consolidate audits and
During FY 2005, there will be over 58 million       investigations into a cohesive, independent
episodes of care for outpatients. There are 157     organization. In October 1978, the Inspector
health care systems (HCS), 134 nursing home         General Act (Public Law 95-452) was enacted,
units, 207 veterans centers, 42 VA domiciliary      establishing a statutory Inspector General (IG)
residential rehabilitation treatment programs,      in VA.


                                                  8

                                    VA and OIG Mission, Organization, and Resources


Role and Authority                                      In addition, 25 FTE are reimbursed for a
                                                        Department contract review function.
The Inspector General Act of 1978 states that
the IG is responsible for: (i) conducting and           The FY 2005 funding of OIG operations
supervising audits and investigations; (ii)             was $73.6 million, with $69.1 million
recommending policies designed to promote               from appropriations, $1.7 million from FY
economy and efﬁciency in the administration             2004 carryover, and $2.7 million through
of, and to prevent and detect criminal activity,        reimbursable agreement. Approximately, 73
waste, abuse, and mismanagement in, VA                  percent of the total funding is for salaries and
programs and operations; and (iii) keeping the          beneﬁts, 4 percent for ofﬁcial travel, and the
Secretary and Congress fully informed about             remaining 23 percent for all other operating
problems and deﬁciencies in VA programs and
                                                        expenses such as contractual services, rent,
operations and the need for corrective action.
                                                        supplies, and equipment.
The Inspector General Act Amendments
of 1988 provided the IG with a separate                 OIG resource allocation, by VA organizational
appropriation account and revised and                   element, in this reporting period, is as follows.
expanded procedures for reporting semiannual
workload to Congress. The IG has authority
to inquire into all VA programs and activities
as well as the related activities of persons or
parties performing under grants, contracts, or                               VBA
                                                                             30%               A&MM
other agreements. The inquiries may be in the                                                   12%
form of audits, investigations, inspections, or
other special reviews.

Organization

Allocated full-time equivalent (FTE)
employees from appropriations for the FY
2005 stafﬁng plan are as follows.                                                            Financial
                                                                                            Management
                                                                                                4%
         OFFICE                ALLOCATED                         VHA                   IT
                                                                 51%                  3%
                                  FTE
Inspector General                   4
Counselor                               4
Investigations                       155
Audit                                197
Management and                         64
Administration
Healthcare                             61
Inspections
TOTAL                                485


                                                   9

VA and OIG Mission, Organization, and Resources


OIG resource allocation applied to mandated,            working with the VA management team
reactive, and proactive work is:                        to identify and address issues that are
                                                        important to them and the veterans served.
                            Reactive
                             40%                    In performing its mandated oversight function,
                                                    OIG conducts investigations, audits, and
                                                    health care inspections to promote economy,
                                                    efﬁciency, and effectiveness in VA activities,
                                                    and to detect and deter criminal activity, waste,
                                                    abuse, and mismanagement. Inherent in
     Proactive
                                                    every OIG effort are the principles of quality
       53%                       Mandated
                                                    management and a desire to improve the
                                   7%               way VA operates by helping it become more
                                                    customer driven and results oriented.

Mandated work is required by statute or             OIG keeps the Secretary and Congress fully
regulation. Examples include our audits             and currently informed about issues affecting
of VA’s consolidated ﬁnancial statements,           VA programs and the opportunities for
oversight of VHA’s quality management               improvement. In doing so, OIG staff strives to
(QM) programs and Ofﬁce of the Medical              be leaders and innovators, and to perform their
Inspector, follow-up activities on OIG reports,     duties fairly, honestly, and with the highest
and releases of Freedom of Information Act          professional integrity.
(FOIA) information.

Reactive work is generated in response to
requests for assistance received from external
sources concerning allegations of criminal
activity, waste, abuse, and mismanagement.
Most of the Ofﬁce of Investigations’ work is
reactive.

Proactive work is self-initiated, focusing on
areas where OIG staff determines there are
signiﬁcant issues.

OIG Mission Statement

   The OIG is dedicated to helping VA
   ensure that veterans and their families
   receive the care, support, and recognition
   they have earned through service to their
   country. The OIG strives to help VA
   achieve its vision of becoming the best-
   managed service delivery organization in
   Government. The OIG continues to be
   responsive to the needs of its customers by

                                                  10

                                                                                 Inspector General
                                               Executive Assistant                                                       Counselor to the
                                                                                                                        Inspector General
                                                                                           Deputy




      Assistant Inspector General                     Assistant Inspector General                     Assistant Inspector General                 Assistant Inspector General
     Management and Administration                           Investigations                                       Audit                             Healthcare Inspections

                      Deputy                                     Deputy                                             Deputy                                   Deputy



                                                                                                      Contract                                 Medical Advisor          Program
      Operational                               Administrative               Criminal                 Review                     Audit
              to               Administration
       Support                   Hotline        Investigations            Investigations                and                    Planning
         Inspector             and Special
                                                                                                     Evaluation
                                  General               Projects




       Financial                 Human                                                                                                                   Regional Offices
          and                   Resources         Analysis and                 Benefits             Operational                Financial                     Atlanta
     Administrative            Management          Oversight                    Fraud                Support                     Audit                      Bay Pines 

       Support                                                                                                                                               Bedford





11
                                                                                                                                                             Chicago

                                                                                                                                                              Dallas
                                                                              Computer                                                                     Kansas City
                                                                               Crimes                                                                      Los Angeles
      Information                                Field Offices                   and                                                                       Washington
      Technology                                   Bay Pines                  Forensics             Information                Veterans
       and Data                                     Chicago                                         Technology                  Health
        Analysis                                     Dallas                                                                    Benefits
                                                 Los Angeles                    Health
                                                   New York                      Care
                                                                                Fraud

     Field Office                                                                                         Operations Divisions
        Austin                             Resident Agencies                                          Atlanta       Bay Pines

                                     Atlanta        Bedford                    Fugitive               Bedford       Chicago                

                                     Cleveland      Columbia                    Felon                 Dallas        Kansas City

                                     Denver         Houston                    Program                Los Angeles   Seattle

                                     Kansas City    Nashville                                         Washington

                                     New Orleans Newark
                                     Phoenix        Pittsburgh
                                     San Diego      San Francisco              Forensic
                                     Seattle        Washington                Document                            Sub Office
                                     West Palm Beach                          Laboratory                            Austin
                                                                                                                                                                                       VA and OIG Mission, Organization, and Resources
VA and OIG Mission, Organization, and Resources





                                  Blank Page




                                    12

COMBINED ASSESSMENT PROGRAM

                                                   derived from a concentrated and continuing
Reports Issued                                     analysis of VHA, Veterans Integrated Service
                                                   Network (VISN), and VAMC databases and
During the period April 1, 2005, through           management information. Areas generally
September 30, 2005, OIG issued 30 CAP              covered include procurement practices,
reports with associated monetary beneﬁts           ﬁnancial management, accountability for
totaling $14.1 million. Of the 30 CAP reports,     controlled substances, and information
OIG reported on 24 VA health care systems          security.
(HCS) and VAMCs, and 6 VAROs.
                                                 Special agents conduct fraud and integrity
Combined Assessment                              awareness brieﬁngs to provide VA employees
Program Overview—Medical                         with insight into the types of fraudulent and
                                                 other criminal activities that can occur in
CAP reviews are part of OIG’s efforts to ensure VA programs and operations. The brieﬁngs
that quality health care services are provided   include an overview and case-speciﬁc
to our Nation’s veterans. CAP reviews            examples of fraud and other criminal activities.
provide cyclical oversight of HCS and VAMC       Special agents may also investigate matters
operations, focusing on the quality, efﬁciency,  that VA employees, members of Congress,
and effectiveness of services provided to        veterans, and others refer to OIG.
veterans by combining the skills and abilities
of representatives from the OIG Ofﬁces of        During this period, OIG issued 24 health care
Healthcare Inspections, Investigations, and      facility CAP reports. Appendix A contains
Audit to provide collaborative assessments of    the full titles, report numbers, and dates of the
VA medical facilities.                           CAP reports issued this period. These reports
                                                 are available to the public on our website:
Health care inspectors conduct proactive         http://www.va.gov/oig.
reviews to evaluate care provided in VA
medical facilities, and assess the procedures    Summary of Findings
for ensuring the appropriateness of patient
care and the safety of patients and staff. The   Deﬁciencies identiﬁed during prior CAP
facilities are evaluated to determine the extent reviews relating to management of veterans
to which they are contributing to VHA’s ability health care programs were discussed in OIG’s
to accomplish its mission of providing high      Summary Report of CAP Reviews at VHA
quality health care, improved patient access     Medical Facilities October 2003 through
to care, and high patient satisfaction. Their    September 2004, issued March 7, 2005.
effort includes the use of standardized survey   During this reporting period, OIG identiﬁed
instruments.                                     similar problems at the medical facilities.

Auditors conduct reviews to ensure                 Quality Management
management controls are in place and
operating effectively. Auditors assess key         OIG identiﬁed opportunities for improvement
areas of management concern, which are             in 9 of the 23 facilities’ QM programs we

                                                 13

Combined Assessment Program


reviewed. Some needed improvement in more             weaknesses in this area during CAP reviews.
than one aspect. OIG found that:                      Controls need to be strengthened to effectively
    1. Improvement was needed in data                 administer the Government purchase card
       collection, analysis, trend identiﬁcation,     program, improve contract award and
       and implementation and evaluation of           administration controls, and strengthen
       corrective actions.                            inventory management.
                                                      • Government purchase card controls were
    2. Patients who experienced adverse
                                                      deﬁcient at 11 of 21 facilities where OIG tested
       outcomes were not adequately notiﬁed
                                                      for these issues. Policies and procedures were
       about the situation, including their
                                                      not followed governing the administration of
       rights to ﬁle tort or beneﬁts claims.
                                                      the purchase card program, use of purchase
    3. Insufﬁcient evidence of resident               cards, purchasing limits, and accounting for
       supervision.                                   purchases.
    4. In one facility licensed independent           • Auditors identiﬁed contract award and
       practitioners did not all have                 administration deﬁciencies at 16 of 23 facilities
       documented evidence of current cardio-         tested. Controls needed to be strengthened to
       pulmonary resuscitation certiﬁcation.          ensure that:
    5. Improvement was needed in mortality                 1. Acquisition and Materiel Management
       review analysis.                                       Service staff follow preaward and
                                                              postaward contract policies and
    6. Medical center managers did not
                                                              procedures.
       adequately analyze whether sufﬁcient
       numbers of caregivers were available to             2. Contracting ofﬁcials properly monitor
       provide safe, quality care to patients.                contract performance and payment for
                                                              services.
                                                           3. Contract ﬁles include all required
                                                              documentation, and the documentation
                                                              is accurate.
                                                           4. Contracting Ofﬁcer’s Technical
                                                              Representatives are provided training,
                                                              as required.
                                                      • Management of supply inventories was
                                                      deﬁcient at all 21 facilities tested. Supply
                                                      inventories were either not performed or
         VA Medical Center St. Louis                  inaccurate. Automated controls were either not
               St. Louis, MO                          fully implemented or not effectively utilized.
                                                      Inventory levels exceeded current requirements
Procurement                                           resulting in funds being tied up unnecessarily
                                                      in excess inventories. Also, management of
OIG identiﬁed the need to improve VA                  equipment inventories was deﬁcient at 5 of 7
procurement practices as one of the                   facilities where we tested records. Equipment
Department’s most serious management                  inventories and spot checks were improperly
challenges. OIG continued to identify control         performed, inaccurate, and not timely.


                                                    14

                                                          Combined Assessment Program


Information Technology                                    hospital staff or contract personnel with
                                                          access to sensitive areas.
OIG identiﬁed a wide range of automated
information system vulnerabilities that could           5. Facilities did not conduct annual
lead to misuse or destruction of critical                  security awareness training.
sensitive information. VA had established               6. IT physical security needed 

comprehensive information security policies,               improvement.

procedures, and guidelines. However, CAP
reviews found facility policy development,         Controlled Substances
implementation, and compliance were                • VA has established policies, procedures,
inconsistent. In addition, there was a need to     and guidelines for accountability of controlled
improve access controls, contingency planning,     substances and other drugs. However,
risk assessments, and security training.           controlled substance inspection procedures
• OIG found inadequate management                  were inadequate to ensure compliance with
oversight contributed to inefﬁcient practices,     VHA policy and U.S. Drug Enforcement
inadequate information security, and problems      Administration (DEA) regulations at 11
with physical security of assets. CAP ﬁndings      of 22 facilities tested. Facilities did not
complement the results of our FY 2003              receive and post controlled substances into
Federal Information Security Management            inventory records witnessed by accountable
Act audit, which identiﬁed information             ofﬁcers designated by Acquisition and
security vulnerabilities that place VA at risk     Materiel Management Service as required
of disruption and denial of service attacks on     by VHA policy. Facility management did
mission critical systems, unauthorized access      not conduct or did not document required
to and improper disclosure of data subject to      72-hour inventories, or conduct unannounced
Privacy Act protection and sensitive ﬁnancial      inspections and inventories, or account
data, and fraudulent receipt of health care        for or dispose of unusable drugs properly.
beneﬁts.                                           Discrepancies between inventory results and
                                                   recorded balances were not reconciled in a
• OIG found information technology security        timely manner. They did not comply with
deﬁciencies at 16 of 23 facilities tested. OIG     VHA policy to report missing controlled
found that:                                        substances to the OIG Ofﬁce of Investigations.
    1. Security and contingency plans were
       not prepared or not kept current and   Colorectal Cancer
       lacked key elements.                   • OIG identiﬁed opportunities in Colorectal
                                              Cancer (CRC) screening, diagnosis, and
    2. Personnel access privileging to
                                              management at ﬁve of the nine facilities where
       automated information systems was not
                                              we reviewed these issues. In all ﬁve facilities,
       performed quarterly.
                                              clinicians needed to improve the timeliness of
    3. Facilities did not effectively monitor CRC diagnosis by reducing delays in obtaining
       access to VHA’s Veterans Health diagnostic gastrointestinal procedures. All
       Information Systems and Technology ﬁve facilities provided timely Surgery and
       Architecture and the Internet.         Hematology/Oncology consultative services
                                              upon making the diagnosis of CRC and
    4. Facilities did not conduct background  developed coordinated interdisciplinary
       investigations for designated key      treatment plans. Three facilities met the VHA


                                                 15

Combined Assessment Program


performance measure for colorectal cancer            Facility management needs to strengthen
screening and promptly informed patients             billing procedures to avoid missed billing
of diagnoses and treatment options. Facility         opportunities, improve timeliness of billings,
managers needed to ensure that diagnostic GI         improve accuracy of diagnostic and procedure
procedures are performed within reasonable           coding, and aggressively pursue accounts
timeframes.                                          receivable.

Pressure Ulcers                                      Pharmacy Security
• OIG identiﬁed opportunities for                    • VA health care facilities need to improve
improvement in pressure ulcer prevention and         physical security in pharmacy areas to meet
management at 9 of the 14 facilities where           VA standards. OIG found physical security
we reviewed these issues. Findings at all            deﬁciencies in pharmacy areas at three of
nine facilities indicated that clinicians needed     eight facilities tested. The pharmacy walls
to more consistently document patient skin           and dispensing window were not constructed
integrity assessments, identify patients at risk     of materials meeting minimum security
for pressure ulcers, and consistently document       requirements as required by VA policy.
treatments. Also, nurses needed to be properly
trained on all aspects of pressure ulcer
prevention and management. In two facilities,
we found that pressure ulcer education was
not consistently provided to patients and/or
their caregivers or documented in the medical
records. Another facility needed to develop
and implement a comprehensive pressure ulcer
policy and document treatment efﬁcacy and
cost impact information.

Medical Care Collections Fund
                                                             VA Medical Center Cincinnati
• VA health care facilities continue to increase                   Cincinnati, OH
Medical Care Collections Fund (MCCF)
collections. However, OIG found deﬁciencies          Part-Time Physician Time and
at 20 of 22 facilities tested. Deﬁciencies           Attendance
included:                                            • VAMC managers did not have effective
  1. Insurance information was not obtained          controls in place to ensure that part-time
     from veterans at the time of treatment.         physicians time and attendance records
                                                     were accurate at 5 of 14 facilities tested.
  2. Inadequate and untimely documentation           Physicians did not complete appropriate
     of services provided.                           time and attendance records, and timecards
  3. Billable care not identiﬁed, fee basis care     were not posted based on the timekeepers’
     not forwarded to veterans’ health insurers      actual knowledge of physicians’ attendance.
     for payment.                                    Additionally, timekeepers did not receive
                                                     annual refresher training, and desk audits were
  4. Billing backlogs being processed                not conducted as required by VA policy.
     untimely. 




                                                   16

                                                            Combined Assessment Program


Financial Controls                                  • Nineteen percent of the inpatients told
• Controls over the accounts receivable             us that they did not have one primary care
function needed improvement at six of nine          provider who was responsible for their overall
facilities tested. OIG identiﬁed instances          treatment. Ten percent had concerns about the
where debts were improperly canceled and            adequacy of discharge planning for continuity
inaccurate. For example, staff did not properly     of care following discharge from the hospital.
reconcile debts in the Financial Management
                                                    Outpatient Surveys
System with Integrated Funds Distribution
Control Point Activity, Accounting, and             OIG surveyed 434 VA outpatients at 24
Procurement. Also, accounts receivable were         facilities to ascertain their satisfaction with
untimely processed.                                 primary care, mental health, or specialty care
• OIG found that improvement was needed             clinics. OIG also surveyed outpatients who
over control of unliquidated obligations at         were in waiting areas of the various supportive
two of four sites. There were instances where       services such as pharmacy, radiology, and
undelivered orders and accrued services             laboratory.
payable, which were no longer needed and            • Overall, 96 percent of the outpatients
over 90 days past due, were not canceled.           rated the quality of care as good, very good,
                                                    or excellent. Ninety-seven percent of the
Survey Results                                      outpatients would recommend medical care to
                                                    eligible family members or friends, 94 percent
Inpatient Surveys                                   told us that their treatment needs were being
                                                    addressed to their satisfaction, and 91 percent
OIG completed 346 inpatient interviews in 24
                                                    said they felt involved in decisions about their
VHA facilities to ascertain their satisfaction
                                                    care.
with mental health, medical, surgical, long-
term, and intensive care. OIG discussed the         • Eighty-four percent of the outpatients
results with local management ofﬁcials before       reported that a health care provider discussed
leaving the sites.                                  the results of tests and procedures with them.
                                                    Ninety-ﬁve percent said their primary care
• Overall, 96 percent of the inpatients rated
                                                    provider discussed the reasons for medications
the quality of care they received in VHA
                                                    with them, and explained the reasons for
facilities as good to excellent. Ninety-six
                                                    referrals to specialists and why diagnostic tests
percent of the respondents would recommend
                                                    were ordered.
care at a VHA facility to an eligible family
member or friend, and 95 percent said their         • Eighty percent were given appointments
care needs were being addressed to their            and were assessed by the specialist within 30
satisfaction.                                       days of the referrals and 76 percent received
                                                    counseling by a pharmacist when they received
• Ninety-three percent of the inpatients told
                                                    new prescriptions. Eighty-four percent said
us that staff members explained their care
                                                    that they received their reﬁlls in the mail
plans to them, and 91 percent felt that they
                                                    before they ran out of their medications.
were included in clinicians’ decisions about
their treatment. Ninety-two percent said that       • Only 70 percent of the outpatients said
they received education from clinicians on          that they were generally able to schedule
prescribed medications and procedures.              appointments with their primary care providers
                                                    within 7 days of their request.

                                                  17

Combined Assessment Program


Physical Plant Environment                           Compensation and Pension
                                                     Claims Processing
OIG conducted environment of care                    • Compensation and pension (C&P) beneﬁts
inspections in 24 facilities evaluating primary      for veterans hospitalized for extended
care and specialty outpatient clinics, inpatient     periods of time at Government expense
wards, emergency rooms, intensive care/              were not reduced as required at all six
coronary care units, nursing home care units,        facilities reviewed. Veterans Service Centers
domiciliary units, psychiatry units, surgery,        (VSC) did not always identify hospitalized
and rehabilitation areas, as well as in some         veterans whose beneﬁts required adjustment.
kitchens, canteens, or supply processing and         Management needs to ensure that payments
distribution areas.                                  to certain veterans be reduced as appropriate,
                                                     initiate collection of overpayments, review
Twelve of the 24 facilities were generally           VA’s Automated Medical Information
clean and well maintained with minor issues          Exchange admission reports and consult with
management corrected immediately during our          medical center staff to improve compliance
inspections. Twelve facilities received a total      with requirements for notiﬁcation when
of 40 recommendations to correct environment         veterans are hospitalized for extended periods,
of care deﬁciencies. Recommendations were            and provide refresher claims processing
distributed among four categories as follows:        training for VSC staff.
safety (25), cleanliness (7), infection control
(5), and patient privacy (3).                        Information Technology
                                                     • IT security was deﬁcient at three of six
Combined Assessment                                  facilities tested. The CAP review coverage of
Program Overview—Beneﬁts                             VBA facilities in FY 2005 identiﬁed a wide
                                                     range of vulnerabilities in VBA systems similar
During this period, OIG issued six CAP reports       to those identiﬁed during VHA CAP reviews.
on the delivery of beneﬁts, listed in Appendix       These deﬁciencies could lead to misuse or
A with their exact titles, report numbers, and       loss of sensitive automated information and
dates. These reports are available on our            data. The CAP review ﬁndings show a need
website: http://www.va.gov/oig.                      to improve physical security and contingency
                                                     planning.
Summary of Findings
                                                     Other VBA Programs
Deﬁciencies identiﬁed during prior CAP               • VBA’s processing and timeliness over
reviews in the management of veterans beneﬁts        vocational rehabilitation and employment
programs were discussed in OIG’s December            (VR&E) claims continue to need improvement.
2004 summary report of CAP reviews at                Data entry, claims processing, timeliness
VAROs conducted October 2003 through                 of services, needs assessments, and case
September 2004. During this reporting period,        monitoring errors were noted at two of
OIG identiﬁed similar problems at all six            four facilities where we tested these issues.
facilities.                                          Appropriate actions are needed to promptly
                                                     place veterans who have completed the
                                                     program in the rehabilitated status.




                                                   18

                                                        Combined Assessment Program


• Government purchase card program
deﬁciencies existed at four of six facilities
where we tested these issues. Supporting
documentation for purchases was insufﬁcient,
reconciliations and certiﬁcations were not
timely or not properly documented, single
purchase limits were not enforced, and
cardholders and approving ofﬁcials needed
appropriate training. Management needs to
ensure that cardholders are properly trained
and warranted, warranted cardholders do not
exceed their $2,500 micro-purchase limit, and
transactions are adequately documented.
• Incarcerated veterans’ payments of beneﬁts
at two of six facilities, where we tested these
issues, had processing deﬁciencies. VBA
overpayed incarcerated veterans because
reviews of their information were not timely.




                                                  19

Combined Assessment Program





                       Blank Page




                               20
              OFFICE OF INVESTIGATIONS

Mission Statement                                I. CRIMINAL
   Conduct investigations of criminal            INVESTIGATIONS
   activities and administrative matters         DIVISION
   relating to the programs and operations
   of VA in an independent and objective
   manner and seek prosecution,                  This Division is primarily responsible for
   administrative action, and/or monetary        conducting investigations into allegations of
   recoveries in promoting integrity,            criminal activities related to the programs
   efﬁciency, and accountability within the      and operations of VA. Criminal violations are
   Department.                                   referred to the Department of Justice, state, or
                                                 local ofﬁcials for prosecution. The Division
Resources                                        is also responsible for operation of both
                                                 the Forensic Document Laboratory and the
                                                 Computer Crimes Forensic Laboratory.
Overall, the Ofﬁce of Investigations has 155
FTE allocated to senior management and
its three divisions: Criminal Investigations
                                               Resources
Division, Administrative Investigations
Division, and Analysis and Oversight Division. The Criminal Investigations Division has 140
                                               FTE allocated for its headquarters and 22 ﬁeld
                                               locations. These individuals are deployed in
                                               the following VA program areas:
                              Administrative
                                  5%
                                                                     E-Crimes
                                                           A&MM        1%
                                                            6%




                                 Analysis
   Criminal                        4%
    91%


                                                     VHA                            VBA
                                                     33%                            60%



                                                 Overall Performance
                                                 Output

                                                 OIG closed 574 investigations and participated
                                                 in 30 CAP reviews during the reporting period.

                                               21

Ofﬁce of Investigations


Outcomes                                              VA police services, the Division has placed
                                                      an increased emphasis on crimes occurring
Arrests—327                                           at VA facilities throughout the nation to help
Indictments—155                                       ensure safety and security for those working
Criminal Complaints—25                                in or visiting VAMCs. During this semiannual
Convictions—149                                       period, OIG special agents have participated
Pretrial Diversion—19                                 in, or provided support to, VA police in the
Fugitive Felon Apprehensions—273*                     arrest of 79 individuals who committed crimes
Administrative Sanctions—181                          on VHA properties.
Monetary beneﬁts—$261.5 million
                                                      Theft/Distribution of Controlled
This includes: $6,570,375 in ﬁnes, penalties,         Substances
restitutions, and civil judgments; $3,827,520         • A former VAMC housekeeping aide pled
in recoveries; $15,602,789 in cost avoidance          guilty to possession and distribution of a
(efﬁciencies); $7,894,493 in savings; and             controlled substance. The aide received
$227.6 million that includes $145.8 million           deferred sentences of 9- and 12-month
estimated identiﬁed overpayments and                  prison terms to be served concurrently and
$81.8 million estimated cost avoidance                was ordered to make restitution for OIG
speciﬁcally relating to the Fugitive Felon            conﬁdential funds used during one of the
Program.                                              undercover purchases. The aide was caught
                                                      selling two grams of cocaine to a conﬁdential
*Includes the apprehension of 106 fugitive            informant during a joint OIG and VA police
felons by OIG, and 167 apprehensions made             service investigation, and later confessed
by other law enforcement entities as a result         to distributing cocaine and marijuana to
of information provided by the OIG Fugitive           several employees in exchange for cash and a
Felon Program.                                        prescription painkiller.
Customer Satisfaction                                 • A joint investigation involving OIG, DEA,
                                                      and a state auditor’s ofﬁce revealed that a
Customer satisfaction during this reporting           VAMC physician was providing controlled
period was 4.8 on a scale of 5.0, where 5.0 is        substances to his adopted son and others.
high.                                                 The doctor and his son were arrested on state
                                                      charges for possession of dangerous drugs. A
                                                      subsequent search of the doctor’s residence
Veterans Health 
                                     uncovered numerous prescription narcotics and
Administration
                                       an illegal ﬁrearm.
                                                      • A former FedEx employee pled guilty
The Criminal Investigations Division                  to possession of a Schedule II controlled
investigates those instances of criminal activity     substance (Oxycodone) by fraud or misrep-
against VHA that have the greatest impact             resentation after being arrested for stealing
and deterrent value, including crimes such as         VA prescription narcotics from three FedEx
patient abuse, theft of Government property,          packages.
drug diversion, bribery/kickback activities           • A joint investigation involving OIG and a
by employees and contractors, false billings,         local police department revealed an individual
and inferior products. Working closely with           sold controlled substances to veterans at a VA


                                                    22

                                                                      Ofﬁce of Investigations


outpatient clinic. The subject was sentenced to     Our investigation revealed that he diverted
3 years’ imprisonment.                              controlled substances, primarily Oxycodone,
                                                    on 38 occasions over a 3-month period by
• A former postal employee was sentenced
                                                    signing out medications for inpatients and
to 2 years’ probation and ordered to pay a
                                                    then taking the drugs himself while on duty.
ﬁne of $1,000 after pleading guilty to mail
                                                    The employee resigned as a result of this
theft and possession of a controlled substance
                                                    investigation.
with intent to distribute. A joint VA OIG
and U.S. Postal Inspection Service (USPIS)          • An OIG investigation revealed a VA
investigation determined the postal employee        registered nurse diverted 634 tablets and
was stealing narcotics intended for veterans.       syringes of various controlled substances
                                                    by entering the user identiﬁcation code
• Agents from OIG and DEA arrested the
                                                    and password of a co-worker to access
daughter of a VA medical center patient for
                                                    an AcuDose-Rx machine. The nurse was
possession of a controlled substance. The joint
                                                    suspended from VA employment and has been
investigation revealed that, while the daughter
                                                    indicted for obtaining a controlled substance
was visiting her veteran father, she allegedly
                                                    by fraud.
took a syringe and withdrew controlled
substances from her father’s intravenous            • A former VA registered nurse was indicted
reservoir. The daughter stated if her father’s      by a Federal grand jury and charged with four
condition worsened she intended to use the          counts of obtaining a controlled substance
drugs to euthanize him.                             by misrepresentation, fraud, deception, or
                                                    subterfuge. The indictment followed a joint
Drug Diversion                                      investigation conducted by the VA police and
• A VA pharmacist pled guilty to charges            OIG which revealed that the nurse diverted
of theft of Government property, illegal            controlled substances intended for VAMC
possession of a Schedule II controlled              patients who were discharged or deceased.
substance, and theft or embezzlement in                    The Capital-Journal, Topeka, KS
connection with health care. A joint OIG                          August 29, 2005
and VA police investigation determined
the pharmacist stole 1,000 milligrams of
Oxycodone from prescriptions intended for
veterans over a 6-month period.
• An OIG investigation revealed that, over
a 5-month period, a VA pharmacy technician
diverted 2,860 tablets, primarily Oxycodone
and morphine, by stealing 1 to 3 tablets per
prescription as she prepared them for mailing
to veterans. The employee resigned as a result
of this investigation, was sentenced to 12
months’ probation, and was ordered to pay a
$1,000 ﬁne after pleading guilty to unlawful
possession of a controlled substance.
• A former VA registered nurse was indicted
for obtaining a controlled substance by fraud.


                                                  23

Ofﬁce of Investigations


• During a joint investigation between              Identity Theft
OIG and the VA police, a search warrant             • An individual was sentenced to a term of
executed at the pharmacist’s residence              imprisonment not to exceed 23 months after
uncovered approximately $5,000 worth of             pleading guilty to identity theft. The defendant
medical supplies and a variety of drugs and         utilized a veteran’s identity to fraudulently
medication which the pharmacist pilfered from       obtain $134,014 in unauthorized VA medical
a VAMC pharmacy over a 5-year period. The           care and $24,156 in VA pension beneﬁts.
pharmacist pled guilty to theft, possession, and
embezzlement.                                       • An OIG investigation revealed a veteran
                                                    altered his military records to indicate he
Unlawful Gratuities                                 had been a prisoner of war (POW) in order
                                                    to obtain POW status services at a VAMC.
A VA OIG investigation determined that a            The investigation also determined the veteran
subcontractor on a $20 million VA construction      forged other documents and used the identities
project paid a $63,000 kickback to a prime          of several veterans to receive services at
contractor in order to secure work on a VAMC        numerous VA facilities. The veteran was
project. The defendant increased the price          sentenced to 3 years’ incarceration after
of the proposed subcontract by the amount           pleading guilty to theft of Government
of the kickback and these inﬂated costs were        beneﬁts.
passed on to VA through the submission
of a fraudulent change order by the prime           Theft
contractor. The subcontractor was arrested          • A VA OIG investigation determined a
and subsequently pled guilty to charges of
                                                    former employee of a veterans’ charity
providing a kickback.
                                                    engaged in a scheme to steal money from
St. Petersburg Times, St. Petersburg, FL                                           August 8, 2005




                                                   24
                                                                         Ofﬁce of Investigations


people by claiming he still worked for the            ordered to pay $57,472 in restitution based on
charity and was collecting money on its behalf.       her conviction for making false statements to
The former employee was already under                 obtain Federal employee compensation.
investigation for falsely representing to the
                                                      • A former VAMC employee was indicted for
public that the charity was collecting money to
                                                      theft of public money after a joint investigation
beneﬁt a VAMC. He deposited the money into
                                                      by VA OIG and DOL OIG determined the
his personal bank account. He was indicted on
                                                      former employee made false claims and
theft charges and arrested. The estimated fraud
                                                      false statements to DOL’s Ofﬁce of Workers’
exceeds $60,000.
                                                      Compensation Programs. The fraud enabled
Time and Attendance Fraud                             her to receive workers’ compensation beneﬁts
                                                      of approximately $138,234 while being
• A joint investigation involving OIG, VA             employed as a nurse’s aide with earned income
police, and state police determined that              exceeding $200,000.
a VA nursing assistant was “clocked in”
simultaneously on 337 occasions over a 3-year         • A former VHA employee was indicted
period as both a full-time employee on a VA           for making false statements in order to
psychiatric ward, as well as a full-time laborer      obtain workers’ compensation beneﬁts. The
at a local steel plant. The nursing assistant         former employee made false claims and false
was arrested for fraud. The loss to VA is             statements to DOL, which enabled him to
approximately $18,000.                                fraudulently receive $225,475 in beneﬁts.

Bribery                                               Employee Theft
• A joint OIG and FBI investigation                   • A former VA autopsy assistant was
determined that a VA prosthetics representative       sentenced to 32 months’ incarceration after
received kickbacks from a vendor who                  pleading guilty to theft of human remains,
installed ramps in veterans’ homes. The vendor        receiving stolen property, and drug possession.
submitted both inﬂated and bogus invoices             The defendant had stolen 157 pounds of
to the VAMC in order to cover the cost of the         human remains from the VAMC in which he
bribes. After pleading guilty to making false         was employed. The remains were found at
claims, the former VA employee was sentenced          his residence, along with a variety of VAMC
to 5 years’ probation and ordered to pay              laboratory equipment he had stolen.
restitution of $11,770. The vendor executed           • An OIG investigation revealed that for
a pretrial diversion agreement wherein he             2 years a VAMC employee overstated
agreed to abide to the conditions of the pretrial     her medical transcription line counts. The
diversion program for a period of 12 months.          employee, who also worked while off-duty as a
                                                      VA contractor providing medical transcription
Workers’ Compensation Fraud
                                                      services, pled guilty to a charge of making
• A joint OIG and Department of Labor                 false claims. She and the senior contracting
(DOL) OIG investigation determined a VA               ofﬁcer who approved the fraudulent invoices
nursing assistant, who received workers’              resigned as a result of this investigation. The
compensation beneﬁts from 1980 to 2004, had           loss to VA was $46,356.
been working since at least 2000 and failed to
report her employment to DOL. The former              • A nursing assistant, formerly employed at
nursing assistant was sentenced to 36 months’         a VA nursing home pleaded guilty to ﬁnancial
probation, 4 months’ home detention, and              elder abuse and forgery after admitting to


                                                    25

Ofﬁce of Investigations


stealing multiple personal checks from a           opportunities. Each of these beneﬁts programs
terminally ill veteran, and then forging and       is subject to fraud by those who wish to
cashing the checks. The total loss to the          take advantage of the system. For example,
veteran was $4,900.                                individuals submit false claims for service-
                                                   connected disability, third parties steal pension
Armed Robbery                                      payments issued after the unreported death of
• An OIG investigation resulted in the Federal     the veteran, people provide false information
conviction of a Texas man for his role in an       so veterans qualify for VA guaranteed property
armed robbery of a VAMC pharmacy. The theft        loans, equity skimmers dupe veterans out of
involved a variety of controlled substances        their homes, and claimants obtain educational
with a total street value exceeding $250,000.      beneﬁts under false representations. The Ofﬁce
The defendant faces a 10-year prison sentence      of Investigations spends considerable resources
and a $750,000 ﬁne.                                in investigating and arresting those who
                                                   defraud VBA operations.
Purchase Card Fraud
                                                   Death Match Project
• After an OIG investigation revealed that
she charged $19,268 in personal expenses           • The Ofﬁce of Investigations conducts an
to her Government purchase card, a former          ongoing proactive project in coordination
VHA employee pled guilty to theft of               with OIG’s Information Technology and Data
Government funds. She was sentenced to 3           Analysis Division. The death match project is
months’ incarceration and 3 months’ home           conducted to identify individuals who may be
detention, and was ordered to make $18,318 in      defrauding VA by receiving beneﬁts intended
restitution.                                       for veterans who have died. When indicators of
                                                   fraud are discovered, the matching results are
Fee Basis Fraud                                    transmitted to OIG investigative ﬁeld ofﬁces
                                                   for appropriate action. To date, the match
• A veteran was found guilty of wire fraud         has identiﬁed in excess of 10,401 possible
after being charged with defrauding the VA         investigative leads. Over 8,304 leads have
Fee Basis Program. A co-defendant and former       been reviewed, resulting in the development
caregiver of the veteran had previously pled       of 948 criminal and administrative cases.
guilty to the same charge. Our investigation       Investigations have resulted in the actual
uncovered a scheme in which the defendants         recovery of $16.4 million, with an additional
had created a ﬁctitious company that               $7.6 million in anticipated recoveries. In
purportedly provided in-home companion             addition to these recoveries, the 5-year
services for the veteran on a 24/7 basis. The      projected cost avoidance to VA is estimated
loss to VA is approximately $31,000.               at $37.6 million. To date, there have been 145
                                                   arrests in these cases with several additional
Veterans Beneﬁts                                   cases awaiting judicial actions.
Administration                                     Deceased Beneﬁciary Beneﬁts
                                                   Fraud
VBA provides wide-reaching beneﬁts to              • The son of a deceased VA dependency
veterans and their dependents, including           and indemnity compensation (DIC) recipient
compensation and pension payments, home            was sentenced to 70 months’ incarceration,
loan guaranty services, and educational            60 months’ probation, and ordered to make


                                                 26

                                                                        Ofﬁce of Investigations


restitution of $32,827 to VA and $21,225 to           Dependency and Indemnity
SSA. The defendant had failed to inform VA            Compensation Beneﬁts Fraud
and SSA of his mother’s death and converted           • After pleading guilty to mail fraud, a widow
the VA and SSA funds to his own use.                  was sentenced to 15 months’ incarceration,
• A joint investigation by OIG and the Ofﬁce          36 months’ probation and ordered to pay
of Personnel Management revealed a mother             $201,902 restitution. OIG determined that she
and daughter stole survivor beneﬁts intended          fraudulently received VA widow’s beneﬁts by
for the widow of a VA employee who died in            failing to report her remarriage.
1979. The loss to the Government is $105,633.         • An OIG investigation determined that a
The defendants were arrested following an             widowed beneﬁciary failed to notify VA she
indictment for theft of Government funds.             remarried following the death of her veteran
• A husband and wife pleaded guilty to                husband. She was sentenced to 6 months’
conspiracy charges stemming from theft of             incarceration, 36 months’ probation, and
Government funds. The subjects, caretakers            ordered to pay $32,879, plus interest, in
for a DIC beneﬁciary, continued to receive and        restitution.
use the widow’s DIC beneﬁts after her death in
June 1992. The loss to VA is $146,247.                Bribery
                                                      • A VA OIG investigation, involving auditors,
• An OIG investigation determined the
                                                      information technology specialists, and special
daughter of a deceased VA beneﬁciary
                                                      agents, determined that, over a 5-year period, a
concealed her mother’s death for almost 10
                                                      VARO property management realty specialist
years and stole VA funds deposited in her
                                                      fraudulently awarded $4 million in contracts to
mother’s account. The daughter was sentenced
                                                      VA contractors. As a result of these contracts,
to 5 months’ incarceration, 36 months’
                                                      he received $100,000 in cash and thousands of
probation, and ordered to make restitution of
                                                      dollars in free renovations to 2 family homes.
$106,300.
                                                      He was sentenced to 63 months’ incarceration,


The Union Leader, Manchester, NH                                                    March 31 , 2005




                                                 27
Ofﬁce of Investigations


36 months’ probation, and ordered to make           insider information on Government contracts,
restitution of $419,400.                            allowing the contractor to underbid the
                                                    competition. In return for his payments, the
• A former VR&E ofﬁcer pled guilty to
                                                    contractor was awarded contracts totaling
theft of Government property, converting
                                                    $355,462. The employee also submitted
the property of another, and obstruction of
                                                    ﬁctitious vouchers for payment by VA.
a Federal audit after a joint OIG Ofﬁce of
Investigations and Ofﬁce of Audit investigation     Compensation Beneﬁts Fraud
identiﬁed over $16,000 in fraudulent VA credit
card purchases. Additionally, he fraudulently       • Six veterans were indicted for making false
allowed a veteran to be involved in a VR&E          statements after a proactive project initiated
program in return for work completed at             by the Department of Transportation matched
the employee’s home and his spouse’s new            Federal Aviation Administration (FAA) records
business. Over $36,000 of VA funds were             of active pilots to SSA records of disabled
fraudulently used for work, materials, and          individuals. These six individuals had also
tools.                                              received VA beneﬁts for disability ratings
                                                    ranging from 40 to 100 percent. In order
• A former VA employee was sentenced to             to maintain an active pilot’s license, these
imprisonment of 1 year and 1 day and 2 years’       individuals submitted to periodic medical
supervised release in connection with his           examinations and continually certiﬁed to FAA
guilty plea to conspiracy to commit bribery.        they did not suffer from signiﬁcant medical
A joint investigation by OIG and the Federal        conditions. The disabilities the veterans
Bureau of Investigation (FBI) determined the        presented to SSA and VA were inconsistent
employee received payments for providing            with certiﬁcations made to FAA.
                                                    • A veteran and his wife were arrested for
     The Baltimore Sun, Baltimore, MD               conspiracy and theft of public money for
              August 5, 2005
                                                    making false statements which resulted in an
                                                    undeserved 100 percent disability rating for
                                                    a claimed heart condition. In addition, the
                                                    joint investigation, involving VA OIG, Health
                                                    and Human Services OIG, and SSA OIG,
                                                    determined the veteran and his wife forged and
                                                    negotiated VA beneﬁt checks intended for their
                                                    daughter’s college education expenses. Loss to
                                                    VA is $115,000. The total Government loss is
                                                    $235,000.
                                                    • A joint investigation by OIG, USPIS, DOL
                                                    OIG, and the Defense Criminal Investigative
                                                    Service determined a veteran fraudulently
                                                    received OWCP beneﬁts and VA disability
                                                    beneﬁt compensation. The veteran was
                                                    sentenced to 24 months’ incarceration, 2 years’
                                                    probation, and ordered to pay $559,365 in
                                                    restitution, ﬁnes, and forfeitures.



                                                  28

                                                                         Ofﬁce of Investigations


Pension Beneﬁts Fraud                                 attorney did not make proper disbursement
• A veteran pleaded guilty to making a false          of proceeds of real estate closings on VA-
statement in connection with his claim for VA         foreclosed and other properties to sellers, prior
pension beneﬁts. Our investigation disclosed          lenders, and lien holders. The attorney was
he earned over $370,000 of unreported income          sentenced to 76 months’ incarceration and 36
from 1997 to 2004 while receiving a VA                months’ supervised release, and was ordered
pension, with a loss to VA of $68,303.                to pay $2,084,610 in restitution. The prison
                                                      sentence was enhanced because there were
          El Paso Times, El Paso, TX                  more than 50 victims, the loss was greater than
                July 20, 2005                         $1 million, and the attorney was in a position
                                                      of trust.
                                                      • An OIG investigation determined the uncle
                                                      of a VA beneﬁciary misappropriated VA funds
                                                      intended for his disabled adult niece over a
                                                      7-year period. The uncle was sentenced to
                                                      2 months’ incarceration, 12 months’ probation,
                                                      and ordered to pay restitution in the amount
                                                      of $49,224 after pleading guilty to theft of
                                                      Government funds.
                                                      • Two individuals pleaded guilty to bank
                                                      fraud after an investigation determined they
                                                      had embezzled money from a non-proﬁt
                                                      organization that acted as a representative
                                                      payee for VA and SSA beneﬁciaries. The loss
                                                      to the Government is $83,394.

                                                      Mortgage Loan Fraud
                                                      • A real estate agent was indicted for mail
                                                      fraud after a joint investigation by VA OIG,
                                                      the FBI, and HUD OIG determined that
                                                      she fraudulently obtained VA real estate
                                                      commission checks. She submitted inﬂated
Education Beneﬁts Fraud                               bids, false income information, and false asset
• Criminal charges were ﬁled against a                information on behalf of her clients, who were
veteran for theft of Government funds                 not aware that she had altered documents and
related to VA educational beneﬁts. A VA OIG           forged their signatures. Most of the properties
investigation determined the veteran failed to        subsequently went into foreclosure. The
report he had withdrawn from training courses         loss to the Government is in the hundreds of
and continued to receive beneﬁts. The loss to         thousands of dollars.
VA was $18,534.

Fiduciary Fraud
• An investigation by OIG and a state bureau
of investigation determined a private real estate


                                                    29

Ofﬁce of Investigations


Fugitive Felon                                     identiﬁes the statistics relating to the Fugitive
                                                   Felon Program.
Program
                                                   To date, Memoranda of Understanding/
The Ofﬁce of Investigations’ Fugitive Felon        Agreements have been completed with the
Program identiﬁes VA beneﬁts recipients            U.S. Marshals Service (USMS) and the
who are fugitives from justice. The program        National Crime Information Center (NCIC),
evolved after Congress enacted Public Law          as well as with the States of California, New
107-103, Veterans Education and Expansion          York, Tennessee, Washington, Pennsylvania,
Act of 2001, prohibiting veterans who are          Ohio, Massachusetts, Alabama, Arizona,
fugitive felons or their dependents from           Delaware, and Michigan. OIG is negotiating
receiving speciﬁed beneﬁts. The program            additional agreements with other states. The
matches fugitive felon ﬁles of law enforcement     program has led to additional cooperative
organizations against more than 11 million         efforts between OIG, VBA, and VHA in an
records contained in VA beneﬁt system ﬁles.        attempt to implement this initiative.
Once a veteran is identiﬁed as a fugitive,
information on the individual is provided to       Investigative leads provided to law
the law enforcement organization responsible       enforcement agencies since the inception of
for serving the warrant to assist in the           the program have led to the arrest of fugitives
apprehension, and given to the Department          wanted for murder, manslaughter, sexual
so that beneﬁts may be suspended and               assault, robbery, drug offenses, and other
overpayments recovered. The following table        serious felonies. The apprehension of these

                                                                  This                Total
             Fugitive Felon Program                             Reporting             Since
                                                                 Period             Beginning

  Felony Warrants Received from Participating                            2.7M                9.2M
  Agencies

  Matched Records                                                       7,278             49,913

  Referred to Law Enforcement Agency Which
  Holds the Warrant                                                     4,497             20,778

  Arrests Made by Law Enforcement Agency                                  167                 556
  Which Holds the Warrant

  Arrests Made by OIG                                                     106                 474

  Referrals to VA for Beneﬁts Suspension                                6,839             18,985

  Estimated Identiﬁed Overpayments                                  $145.8M             $218.2M

  Estimated Cost Avoidance                                           $81.8M             $237.3M


                                                 30

                                                                       Ofﬁce of Investigations


subjects has made VA facilities safer for our        OIG Computer Crimes and
veterans, employees, and the general public.         Forensic Laboratory
OIG was one of nearly 960 Federal, state             The Ofﬁce of Investigation operates a
and local law enforcement agencies to                Computer Crimes and Forensic Laboratory
have participated in Operation FALCON, a             in Washington, DC. The laboratory offers
nationwide fugitive apprehension operation           forensic support in the examination of
coordinated by the U.S. Marshals Service             computers, removable storage media, personal
(USMS) during the ﬁrst week of April 2005.           digital assistants, and other digital storage
The operation resulted in the arrest of a            devices. The Computer Crimes and Forensic
total of 10,340 dangerous fugitives wanted           Laboratory provides support to OIG special
for homicides, sexual assaults, gang-related         agents nationwide in the investigations of
crimes, kidnappings, major drug offenses,            fraud, misuse of Government equipment,
crimes against children and the elderly, and         identity theft, and child pornography.
unregistered sex offenders.
                                                     The following table identiﬁes the statistics
Three veterans wanted for a total of ﬁve sexual      relating to the Computer Crimes and Forensic
assaults were arrested without incident by OIG       Laboratory.
agents and other law enforcement ofﬁcials.

With the assistance of local police and OIG               Laboratory Cases this Period
agents, a veteran, wanted on a failure to appear
warrant for a robbery charge, was arrested at a          Child/Adult Pornography              4
VAMC by VA police.
                                                         Financial Crimes                     2
VA OIG agents and deputy U.S. Marshal
arrested a veteran at a VAMC relating to a               E-mail Investigations                1
parole violation based on a previous conviction
for assaulting a police ofﬁcer with a dangerous          Other Non-Criminal                   3
weapon.

A veteran was identiﬁed as a fugitive felon
                                                     Ten laboratory cases were completed during
wanted for possession of cocaine with the
                                                     this semiannual period. Also, the forensics lab
intent to distribute. A USMS Fugitive Task
                                                     conducted examinations on approximately 2.5
Force assisted by OIG agents arrested him
                                                     terabytes of data. To put this in perspective,
without incident at a VAMC. The fugitive
                                                     one terabyte is roughly equivalent to 280
had an extensive violent criminal history,
                                                     million pages of paper.
including possession of a sawed off shotgun,
aggravated assault, drug dealing, and theft. He
had previously been involved in an exchange          In addition, the Computer Crimes and
of gunﬁre with local police.                         Forensics Laboratory has continued to
                                                     forge professional partnerships with other
                                                     Government agencies actively engaging in
                                                     criminal computer forensic investigations. The
                                                     lab has been professionally represented at the
                                                     Inspector General Academy, and the Federal

                                                   31

Ofﬁce of Investigations


Information Security Conference, and has           Outcomes
gained representation with the International
Society of Forensic Computer Examiners.            VA managers agreed to take 16 administrative
                                                   sanctions, including personnel actions against
                                                   11 ofﬁcials, and corrective actions in 5
II. ADMINISTRATIVE                                 instances to improve operations and activities.
INVESTIGATIONS                                     The corrective actions included issuing a bill
DIVISION                                           of collection to a human resources ofﬁcer
                                                   for excess salary he received, eliminating a
                                                   conﬂict of interest situation involving a VA
This Division is responsible for investigating     researcher, and ensuring solicitations for
allegations against senior VA ofﬁcials and         research centers are properly competed
other high-proﬁle matters of interest to the
Congress and the Department.                       Samples of the Administrative Investigations
                                                   Division reports issued during this period are
Resources                                          provided below. These reports address serious
                                                   allegations of misconduct by high-ranking
The Administrative Investigations Division         ofﬁcials and other high-proﬁle matters of
has seven FTE allocated. The following chart       interest.
shows the percentage of resources used in
reviewing allegations by program area.
                                                   Veterans Health 

                                                   Administration

     VHA
     75%                              VBA
                                      15%          Appearance of Preferential
                                                   Treatment

                                                   An administrative investigation substantiated
                                                   a pattern whereby, in four separate instances,
                                                   senior managers at a VAMC hired the
                                                   spouse or ﬁancée of another senior manager
                                    VACO
                                                   under questionable circumstances, giving
                                    10%            the appearance these individuals received
                                                   preferential treatment. The investigation
                                                   also substantiated that the facility’s associate
                                                   director improperly requested, and the
Overall Performance                                director improperly approved, a substantial
                                                   pay increase for the human resources ofﬁcer
Output                                             by retroactively giving him a superior
                                                   qualiﬁcations appointment. VHA ofﬁcials
The Division closed 17 cases and issued 6          agreed with our recommendations to take
reports and 6 advisory memoranda.                  appropriate administrative action against the
                                                   senior ofﬁcials who created the appearance of
                                                   giving preferential treatment, and agreed to
                                                   correct the improper superior qualiﬁcations


                                                 32

                                                                       Ofﬁce of Investigations


appointment and bill the human resources             III. ANALYSIS AND
ofﬁcer for the excess salary he received.
                                                     OVERSIGHT DIVISION
Inappropriate Involvement in
Arranging Disposition of VA Real
Property                                             This Division has oversight responsibilities
                                                     for all operations conducted by the Ofﬁce of
An administrative investigation substantiated        Investigations through a detailed inspection
that a VAMC director inappropriately                 program to ensure the agency is in full
involved himself in a university’s request to        compliance with the quality standards for
transfer, as a gift, over $102 million in VA         investigations published by the President’s
real property located on the medical center’s        Council on Integrity and Efﬁciency (PCIE).
campus. The director engaged in discussions          The Division is also responsible for scheduling
with, and provided advice and ﬁnancial               and facilitating operational and management
resources to, university ofﬁcials regarding          training for all employees within the
the transfer without adequately notifying his        Ofﬁce of Investigations. Additionally, the
VA supervisors so they could ensure VA’s             Division is the primary point of contact for
interests were sufﬁciently protected. The            law enforcement communications through
director’s involvement was also a conﬂict            the NCIC, the National Law Enforcement
of interest because he resided in one of the         Telecommunications System, the Financial
buildings requested for transfer, and was a          Crimes Criminal Enforcement Network,
without-compensation faculty member of               and other law enforcement professional
the university. VHA ofﬁcials concurred with          organizations.
our recommendation to take appropriate
administrative action against the director and       Resources
to terminate activity related to the proposed
                                                     The Analysis and Oversight Division has six
transfer that was not in the Government’s best
                                                     FTE allocated.
interest.

Partiality and Misuse of Position                    Overall Performance

An administrative investigation substantiated        Output and Outcomes
that a senior VHA ofﬁcial failed to act
impartially in the performance of her ofﬁcial        During the reporting period, the Division
duties when she made funding decisions               accomplished the following:
relating to a research center proposal because           • Scheduled and/or facilitated 178
she had previously discussed job and academic              instances of training involving 103
opportunities for a family member with                     different employees for such courses as
participants identiﬁed in the proposal. The                Criminal Investigator Training Program,
ofﬁcial’s conduct also constituted an improper             IG Transitional Training Program,
use of her ofﬁcial position for the private gain           Continuing Legal Education, Interviewing
of a relative. The senior ofﬁcial resigned after           Techniques, Firearms Instructor Program,
being advised of ﬁndings in the draft report.              Defensive Tactics Training Program, and
                                                           OPM Management Training.
                                                         • Conducted 238 NCIC record checks in
                                                           support of criminal investigations.

                                                   33

Ofﬁce of Investigations


  • Completed an inspection of a regional ﬁeld
    ofﬁce.
  • Conducted four regional periodic
    refresher training seminars for all criminal
    investigators that included ﬁrearms
    qualiﬁcation, scenario-based exercises, use
    of force policy discussions, report writing,
    defensive tactics and related practical drills,
    legal update, and physical conditioning
    assessments.




                                                 34
OFFICE OF AUDIT


Mission Statement                                   In addition, the Ofﬁce of Audit’s Contract
                                                    Review and Evaluation Division has
   Improve the management of VA programs            25 FTE authorized for reimbursement under
   and activities by providing our customers        an agreement with the VA Ofﬁce of Acquisition
   with timely, balanced, credible, and             and Materiel Management. This division
   independent ﬁnancial and performance             conducts preaward and postaward reviews of
   audits and evaluations that address the          certain categories of VA contracts.
   economy, efﬁciency, and effectiveness
   of VA operations; and that identify              Overall Performance
   constructive solutions and opportunities
   for improvement; and to conduct                  Outputs
   preaward and postaward reviews to assist         • Issued 8 audit reports and 47 contract
   contracting ofﬁcers in price negotiations        reviews. In addition, we took part in a major
   and to ensure reasonableness of contract         joint project and 30 CAP reviews.
   prices.
                                                    Outcome
Resources                                           • Recommendations to enhance operations
                                                    and correct operating deﬁciencies have
The Ofﬁce of Audit has 197 FTE allocated for        associated monetary beneﬁts totaling
its headquarters and 12 operating divisions         approximately $19.9 billion. In addition,
located throughout the country. The following       contract reviews identiﬁed monetary beneﬁts
chart shows the allocation of resources used in     of $93.3 million associated with the results of
auditing each of VA’s major program areas.          preaward and postaward contract reviews.

                                                    Customer Satisfaction
                             A&MM                   • Customer satisfaction with performance
        Management            9%     IT             and ﬁnancial audits and evaluations average
            9%                      6%
                                                    4.4 on a scale of 5.0. The average customer
                                                    satisfaction rating achieved for contract
                                                    reviews was 4.5 out of a possible 5.0.



      VBA
      25%
                             VHA
                             51%




                                                  35
                                                  35

Ofﬁce of Audit


Veterans Health 
                                        •	 Develop a standard training package for
                                                            schedulers.
Administration

                                                     The Under Secretary for Health agreed
                                                     with the ﬁndings and provided acceptable
Resource Utilization                                 implementation plans. (Audit of the Veterans
Issue: Outpatient scheduling                         Health Administration’s Outpatient Scheduling
  procedures.                                        Procedures, 04-02887-169, 7/8/05)

Conclusion: Outpatient                               Issue: Pharmacy service
  scheduling procedures need                           operations.
  to be improved to ensure                           Conclusion: Internal controls
  accurate reporting of veterans’                      over pharmacy service needed
  waiting times and facility                           improvement.
  waiting lists.
                                                     Impact: Strengthened controls
Impact: Improved service to                            over controlled substances.
  veterans.
                                                     The Director of the VAMC Miami requested
We audited VHA’s compliance with outpatient          the audit after learning of the arrests of
scheduling procedures to determine the               two employees for diversions of controlled
accuracy of veterans’ waiting times and facility     substances at the Oakland Park Outpatient
waiting lists. We identiﬁed the following            Clinic Pharmacy. The purpose of the audit was
deﬁciencies:                                         to determine whether internal controls over
  •	 Schedulers did not follow established           pharmacy service operations were adequate to
     procedures for creating appointments.           detect or prevent drug diversion. Speciﬁcally,
                                                     the audit objectives were to determine whether
  •	 Medical facilities did not have effective       the Controlled Substances Inspection Program
     electronic waiting list procedures.             (CSIP) was operating effectively and in
  •	 VHA did not have an adequate training           accordance with VA regulations; and inventory
     program for schedulers.                         management controls over the procurement
                                                     and distribution of pharmaceuticals and
  •	 Outpatient scheduling procedures need
     improvement nationwide.                         destruction of excess, expired, and unusable
                                                     drugs were effective and efﬁcient. To correct
We recommended the Under Secretary for               the identiﬁed deﬁciencies, we recommended
Health:                                              the VAMC Director ensure that:

  •	 Ensure managers require schedulers to               •	 The VAMC have a comprehensive CSIP
     create appointments following established              that operated in accordance with VHA
     procedures and monitor the schedulers’                 regulations.
     use of correct procedures.                          •	 Pharmacy service fully implements the
  •	 Monitor consult referrals, establish an                VA prescribed prime vendor inventory
     automated link, and ensure medical                     management system to procure and
     facilities prohibit the use of informal                manage pharmaceutical inventories,
     waiting lists.


                                                   36

                                                                                   Ofﬁce of Audit


     including conducting annual wall-to-wall        because of the subjective nature of evaluating
     physical inventories.                           the degree of disability, and because the rating
                                                     schedule does not reﬂect modern disability
  •	 Separate the responsibilities for ordering
                                                     concepts. Our review of 2,100 PTSD claims
     and receiving pharmaceuticals.
                                                     found 25 percent had insufﬁcient veriﬁcation
  •	 Have the accountable ofﬁcer witness             of claimed service-related stressor events.
     the receipt and posting of all controlled       We found that VBA’s quality review program
     substances into pharmacy inventory              failed to detect problems identiﬁed in our
     records.                                        review of PTSD cases. To demonstrate the
                                                     potential consequence of not obtaining or
The VAMC Director agreed with the ﬁndings            developing adequate evidence to support a
and recommendations and provided acceptable          PTSD claim, the 25 percent error rate equates
implementation plans. (Audit of Pharmacy             to questionable compensation payments over
Service at VA Medical Center, Miami, FL, 05-         the lifetimes of these veterans estimated at
00195-195, 9/2/05)                                   $19.8 billion.

Veterans Beneﬁts                                     We recommended the Under Secretary for
                                                     Beneﬁts take a number of improvement
Administration                                       actions. The Under Secretary for Beneﬁts
                                                     agreed with the review ﬁndings and
Issue: State Variances in                            recommendations and provided acceptable
  VA Disability Compensation                         improvement plans. (Review of State Variances
  Payments.                                          in VA Disability Compensation Payments, 05-
                                                     00765-137, 5/19/05)
Conclusion: Subjectivity leads
  to inconsistency in rating
  decisions.                                         Ofﬁce of Management

Impact: Questioned cost of
  $19.8 billion in funds.                            Preaward Contract Reviews
OIG conducted a review to evaluate factors      Issue: Federal Supply Schedule
contributing to variances in average annual       (FSS) vendors’ best prices.
VA disability compensation payments by state.
                                                Conclusion: Vendors can offer
As of FY 2004, the national average annual
                                                  better prices to VA.
compensation payment was $8,378 per veteran,
ranging by state from a low of $6,961 to a high Impact: Potential better use of
of $12,004.                                       $73 million.

Demographic factors such as representation,          Preaward reviews of 12 FSS and cost-per-test
military-retired status, period of service, and      offers made recommendations for potential
number of disabilities claimed help to explain       better use of $73 million. Recommendations
such variances, as do claims processing factors      to negotiate lower contract prices were made
such as brokered claims and grant rates. Some        because the vendors were not offering the most
disabilities, such as mental disorders, are more     favored customer prices to FSS customers
susceptible to inconsistent rating decisions         when those same prices were extended to


                                                   37

Ofﬁce of Audit


commercial customers purchasing under                 reviews are a major source of recoveries to
similar terms and conditions as the FSS. On           VA’s Revolving Supply Fund.
a continuing basis, we will review contracting
ofﬁcers’ ﬁnal negotiations to determine how
much of our recommended better use of funds
                                                      Multiple Ofﬁces Action 

was achieved in negotiations.
                                                      Issue: National Vietnam Veterans
Issue: Health care resource                             Longitudinal Study.
  contracts.
                                                      Conclusion: VA should effectively
Conclusion: VA can negotiate                            plan, procure, and manage the
  reduced contract costs.                               remaining work.
Impact: Potential better use of                       Impact: Improved contract
  $19.1 million.                                        management.

We completed reviews of 23 proposals from             The Ofﬁce of Inspector General conducted
VA afﬁliated medical schools involving the            an audit to evaluate the effectiveness of
acquisition of scarce medical specialists’            the procurement and project management
services. We concluded the contracting                processes used for the National Vietnam
ofﬁcers should negotiate reductions of $19.1          Veterans Longitudinal Study. Public Law 106-
million to the proposed contract costs because        419 required that VA contract for this study
of differences between the proposed costs for         of the long-term effects of post-traumatic
the services solicited and the costs the afﬁliate     stress disorder among Vietnam Era veterans.
could justify.                                        After the contractor had worked on the Study
                                                      for more than 2 years, VA ofﬁcials declined
Postaward Contract Reviews                            to extend the contract because of concerns
                                                      about the escalation in projected study costs
Issue: Contractor overcharges for                     and about the contracting methods used. VA
  pharmaceuticals and medical                         did not meet the October 2004 due date for
  supplies.                                           reporting the Study results to Congress.
Conclusion: Overcharges were
  identiﬁed.                                          The audit concluded that the study had
                                                      not been effectively planned, procured, or
Impact: Recovery of $1.2 million.                     managed by Ofﬁce of Acquisition and Materiel
                                                      Management’s Acquisition Operations Service
We completed 12 reviews of vendors’                   contracting ofﬁcials and Veterans Health
contractual compliance with the speciﬁc               Administration project ofﬁcials. Contracting
pricing provisions of their FSS contracts. The        practices did not protect VA’s interests or
reviews resulted in recoveries of $1.2 million.       comply with Federal and VA acquisition
                                                      regulations. Formal acquisition planning was
OIG efforts to maintain an aggressive                 not conducted, and the justiﬁcation used to
postaward contract review program resulted            award a noncompetitive sole source contract
in numerous voluntary disclosures and refund          was not accurate or supported by market
offers from companies relating to overcharges         research. The contract statement of work and
on their contracts with VA. Postaward contract        cost estimates were inadequately developed


                                                    38

                                                                                  Ofﬁce of Audit


and analyses were not done to determine              The Under Secretary for Health and the
if prices for the contract and subsequent            Chief Management Ofﬁcer agreed with the
modiﬁcations were reasonable. Payments were          recommendations and provided acceptable
authorized for unspeciﬁed levels of effort and       implementation plans. (Audit of VA
were not tied to substantive deliverables.           Acquisition Practices for the National Vietnam
                                                     Veterans Longitudinal Study, 04-02330-212,
Several inappropriate modiﬁcations to extend         9/30/05)
the contract and increase the price were
issued without deﬁning the scope of work or
determining price reasonableness. Structured
project management was not applied and
resulted in poorly deﬁned project requirements,
unrealistic cost estimates, and funding requests
that were inconsistent with the scope of work
and related costs. Project managers allowed
the contractor to continue work when no
contract was in effect and funding had not been
obligated.

Depending on how much of the contractor’s
original work will be used if the study is
resumed, all or a substantial portion of the
$4.7 million in costs incurred will have
been wasted. We recommended that the
Under Secretary for Health and the Chief
Management Ofﬁcer:
  •	 Ensure that, if the study is to be resumed,
     formal acquisition planning and proper
     contracting processes are used and
     that assigned project management and
     contracting staff have the required
     knowledge and skills to effectively plan,
     procure, and manage the project.
  •	 Take appropriate administrative action
     against ofﬁcials responsible for the
     contracting and project management
     problems.
  •	 Work with the General Counsel to resolve
     ownership and appropriate disposition
     of equipment and other assets in the
     contractor’s possession or to recover the
     value of the equipment.



                                                   39

Ofﬁce of Audit





                  Blank Page




                         40
OFFICE OF HEALTHCARE INSPECTIONS

Mission Statement                                  • Completed 10 Hotline cases, which
                                                   consisted of reviews of 48 health care related
   Promote the principles of continuous            issues. Administratively closed 3 of the 10
   quality improvement and provide effective       cases and issued reports on the remaining 7
   inspections, oversight, and consultation        cases. Made 14 recommendations that will
   to enhance and strengthen the quality of        improve the health care and services provided
   VA’s health care programs.                      to patients.
                                                   • Completed one national inspection and
Resources                                          made nine recommendations to improve
                                                   patient transportation services and improve
OHI has 61 FTE allocated to staff headquarters     patient and employee safety during transport.
and 8 ﬁeld operations. The following chart
shows the allocation of resources utilized to      • Assisted in a joint review with OIG Ofﬁces
conduct evaluations, inspections, CAP reviews,     of Audit and Investigations.
oversight, technical reviews, and clinical         • Provided clinical consultative support to
consultations in support of criminal cases.        investigators on six criminal cases.

                        Evaluations
                                                   • Oversaw the work of VHA’s Ofﬁce of the
     Hotline
                           15%      Oversights     Medical Inspector on three projects.
   Inspections                         5%
      25%                                          • Completed ﬁve technical reviews on
                                                   recommended legislation, new and revised
                                                   policies, new program initiatives, and external
                                                   draft reports.
                                                   • Reviewed the responses to 50 Hotline cases
                                                   consisting of 97 issues that were referred to
                                                   VHA managers for review.
                     CAPs            Consults
                     50%               5%          Outcomes

Overall Performance                                Overall OHI made or monitored the
                                                   implementation of 114 recommendations
Output                                             to improve the quality of care and services
                                                   provided to patients and their families.
During this reporting period, OHI:                 VHA managers agreed with all of our
                                                   recommendations and provided acceptable
• Participated in 24 CAP reviews to
                                                   implementation plans. VHA implementation
evaluate health care issues and made 91
                                                   actions will improve clinical care delivery,
recommendations that will improve operations
                                                   management efﬁciency, and patient safety,
and activities, and the care and services
                                                   and will hold employees accountable for their
provided to patients.
                                                   actions.


                                                 41

Ofﬁce of Healthcare Inspections


Customer Satisfaction                                     mandatory training requirements to
                                                          include instruction in handling medical
• Customer satisfaction with performance and              emergencies.
ﬁnancial audits and evaluations average 4.6 on
a scale of 5.0.                                         •	 Ensure drivers’ compliance with all
                                                           aspects of VHA’s employee safety alert
                                                           regarding transportation in 15-passenger
Veterans Health 
                                          vans.
Administration
                                         •	 Ensure patient safety is maintained
                                                           through the consistent practice of securing
Healthcare Inspections                                     patient care equipment, other cargo,
                                                           and vehicles and ensure that security of
Issue: Management of Patient                               patients in vehicles is reviewed, policies
  Transportation Services.                                 are established, and observed.
Conclusion: VHA had not                                 •	 Publish policy describing required
  established adequate policies                            equipment needed in vehicles used to
  and management controls to                               transport patients.
  ensure patient and employee                           •	 Provide guidance to VA facilities
  safety during transport.                                 regarding employee escort for patients
Impact: Improved patient and                               with special medical or mental health
  employee safety.                                         needs and ensure that incidents occurring
                                                           during trips are reported to appropriate
The inspection was conducted to determine                  clinical staff and documented in the
if Veterans Health Administration (VHA)                    patients’ medical records.
facilities complied with VA and VHA policies            •	 Ensure contracts for transportation
and Federal regulations governing patient                  services require that vendors certify that
transportation, if VHA facilities had effective            their drivers have been screened, trained,
internal controls to ensure safe patient                   and are competent to safely transport VA
transportation, and if opportunities existed to            patients, and that medical centers ensure
improve patient safety by strengthening patient            that initial and follow-up certiﬁcations are
transportation services (PTS) programs. We                 received and retained.
made nine recommendations to the Under
Secretary for Health to ensure deﬁciencies              •	 Ensure VA managers consider the use of
and vulnerabilities identiﬁed are corrected.               volunteer drivers in emergency planning.
To improve and strengthen PTS programs at               •	 Require that transportation incidents
VHA facilities, we recommended the Under                   and accidents are reported to VHA
Secretary for Health needed to:                            Headquarters’ managers and program
  •	 Improve initial and follow-up screenings              ofﬁcials.
     of motor vehicle operators, incidental
     operators, and volunteer drivers.              The Under Secretary for Health concurred
                                                    with the recommendations and provided an
  •	 Ensure annual safe driving training is         action plan with target dates to implement the
     provided to all employee and volunteer         recommendations. (Healthcare Inspection,
     drivers and publish policy regarding           Inspection of Veterans Health Administration


                                                  42

                                                           Ofﬁce of Healthcare Inspections


Patient Transportation Services, 04-00235-          from the referring military treatment facility
180, 8/4/05)                                        regarding this patient’s medical care and that
                                                    medical staff required additional training
Issue: Suspicious Death.                            to better manage multiple trauma patients
Conclusion: Patient care did not                    returning from the Gulf for rehabilitation. We
  meet community standards                          made recommendations to improve training
  and VA-Defense data-sharing                       for physicians to treat blast injury and other
  was not effective.                                combat-wounded patients, timely and quality
                                                    clinical consultations, and medical records
Impact: Improved quality care                       transfers. Senior VA management concurred
  and patient safety.                               with the recommendations and provided
                                                    acceptable implementation plans. (Healthcare
OIG’s Ofﬁce of Healthcare Inspections was           Inspection, Review of Quality of Care,
requested by the Secretary of Veterans Affairs      Department of Veterans Affairs James A. Haley
to review the care of an active duty marine         Medical Center, Tampa, Fl, 05-00641-149,
who was seriously wounded in Iraq, treated          6/1/05)
initially in Department of Defense (DoD)
facilities, and transferred for rehabilitative
care to the James A. Haley VA Medical Center
(JAHVAMC), where he died three weeks later.
The purpose of this inspection was to review
the care of this marine, focusing particularly
on his care at the JAHVAMC. In performing
this review, it became apparent that many
of the issues it raises have implications for
the medical care of other combat-wounded
soldiers, sailors, marines, and airmen.

In general, we found the intensity and                    VA James A. Haley Medical Center
comprehensiveness of his rehabilitative care                        Tampa, FL
to be high. However, we noted signiﬁcant
deﬁciencies with respect to other speciﬁc
aspects of care. These involved the evaluation      Issue: Delay in deﬁnitive
of persistent fever and abnormal white blood          treatment.
cell count, and the management of mental            Conclusion: Clinicians were
status changes at the end of his life. In             not in compliance with VHA
addition to these issues, an underlying theme         treatment standards for
that emerged is that many of the JAHVAMC              myocardial infarction patients.
clinical staff simply did not grasp how
inherently fragile this patient was. The lack       Impact: Improved quality care
of appreciation of his medically compromised          and patient safety.
state may have led to less intensive diagnostic
evaluation than were indicated. We also found       We initiated an inspection in response
that the JAHVAMC staff failed to ensure             to a complaint alleging lapses in cardiac
that all medical information was obtained           catheterization care contributed to a patient’s


                                                  43

Ofﬁce of Healthcare Inspections


death. The conﬁdential complainant alleged           health patient and that mental health clinic staff
a patient died under what appeared to be             did not follow established procedures when the
questionable circumstances. We substantiated a       patient called threatening to kill other people
delay in deﬁnitive treatment of the patient. The     and then himself. We could not substantiate a
patient did not undergo deﬁnitive treatment          deliberate attempt to “cover up” the incident.
until 3 hours after admission. VHA treatment         However, medical center management failed
standards for myocardial infarction call             to exercise due diligence in investigating,
for deﬁnitive treatment to begin within 90           reporting, and following up on this case.
minutes after presentation to a hospital. We
substantiated the delay in receiving reperfusion     We also found VA police ofﬁcers failed to
therapy was due to the concurrent care of            follow policy when they elected not to notify
other patients in the cardiac catheterization        local law enforcement of the patient’s situation,
lab. Under the circumstances, this patient was       the patient’s primary care physician failed to
treated as soon as possible.                         refer the patient for a mental health evaluation
                                                     despite multiple indications for doing so, and
We concluded it is doubtful the delay was            the medical center’s policies on managing
clinically signiﬁcant due to the length of time      urgent consultations were incongruent. The
the patient experienced symptoms prior to            allegation that the patient might not have
presenting to the emergency room (ER) and            committed suicide if he received the treatment
the condition of the patient on presentation.        that he needed was speculative and therefore
We recommended the VISN Director should              could not be substantiated or refuted. However,
ensure the medical center has a written              the relevant literature on this subject indicates
contingency plan for patients arriving in            a timely and knowledgeable assessment of
the ER with acute coronary syndrome and              suicide risk and professional intervention by
coronary intervention not being available.           a mental heath expert would have increased
The VISN and Medical Center Directors                the likelihood of a better outcome. We made
concurred with the recommendation and have           several recommendations for improvement
taken actions to develop an action plan to           in mental health care, suicide prevention, and
implement the recommendation. (Allegation            suicide reporting. The VISN and Medical Center
of Substandard Cardiac Catheterization Care,         Directors agreed with the recommendations
Hunter Holmes McGuire VA Medical Center,             and provided acceptable improvement plans.
Richmond, VA, 05-00198-181, 8/4/05)                  (Healthcare Inspection, Alleged Denial of Care,
                                                     VA Medical Center, Birmingham, AL, 04-03437-
Issue: Failure to treat.                             175, 7/19/05)
Conclusion: Clinicians did not                       Issue: Premature discharges and
  exercise good judgment in                            insufﬁcient stafﬁng.
  declining to speak to a patient.
                                                     Conclusion: Discharges were
Impact: Improved patient safety.                       appropriate and stafﬁng levels
                                                       met or exceeded minimum
The purpose of the review was to determine             requirements.
the validity of allegations made by an
anonymous complainant. We substantiated the          Impact: Substantiated appropriate
allegation that psychiatrists refused to treat a       discharges and stafﬁng levels.
suicidal patient because he was not a mental


                                                   44

                                                          Ofﬁce of Healthcare Inspections


OIG conducted an inspection to determine               environmental concerns were
the validity of allegations regarding the care         adequately addressed.
of mental health patients. Speciﬁcally, the
complainant alleged that suicidal and violent      Impact: Substantiated
patients were being discharged prematurely,          appropriate care.
and stafﬁng levels were insufﬁcient, which
negatively impacted staff safety when              The purpose of the review was to determine
managing patients with violent behavior.           the validity of allegations concerning quality
The inspection did not substantiate the            of care, customer service, and the environment
allegations. However, we found a general lack      of care at the Buffalo Division of the VA
of understanding of the purpose, policies, and     Western New York Healthcare System. We
procedures related to a newly established 23-      did not ﬁnd the allegations valid at the time of
hour observation mental health unit, and we        our inspection. We concluded that: the patient
found that performance improvement activities      received quality and timely evaluation and
in mental health needed improvement.               care for bladder cancer, the customer service
Medical center managers were responsive            issues were adequately addressed prior to
to our concerns and provided acceptable            our inspection, and the environment of care
documentation to support corrective actions.       concerns were no longer current. Further
Therefore, we made no recommendations.             review of this case was not warranted, and
(Healthcare Inspection, Patient Care and           we made no recommendations. (Healthcare
Stafﬁng Issues, Gulf Coast Veterans Health         Inspection, Quality of Care, Customer Service,
Care System, Biloxi, MS,                           and Environment of Care, VA Western
04-01946-196, 9/2/05)                              New York Healthcare System, Buffalo, NY,
                                                   05-02118-201, 9/19/05).
                                                   Issue: Appropriateness of
                                                     Surgical Service management
                                                     and adequacy of DoD sharing
                                                     agreement.
                                                   Conclusion: Physician assistant
                                                     inappropriately served as chief
                                                     of surgery and more operating
                                                     room time should improve
                                                     access to care.

  Gulf Coast Veterans Health Care System           Impact: Compliance with VHA
                 Biloxi, MS                          directives and improved access
Issue: Allegations of poor                           to care.
  quality of care and services,                    The purpose of the review was to determine
  and unclean environmental                        the validity of two allegations regarding the
  conditions.                                      surgical service at the Anchorage clinic of the
                                                   Alaska VA Healthcare System and Regional
Conclusion: Patient received                       Ofﬁce. We substantiated the allegations. For
  quality and timely care, and                     the past 4 years, a physician assistant has
  customer service issues and                      served as the Chief of Surgical Service, a


                                                 45

Ofﬁce of Healthcare Inspections


position commonly held by surgeons. Prior           Issue: Communication and
to that time, a surgeon served in the position.       documentation.
Joint Commission on the Accreditation of
Healthcare Organizations standards and VHA          Conclusion: Medico-legal
directives require all medical staff service          cases not properly referred,
chiefs to be board-certiﬁed physicians. We            consultations inappropriately
recommended a board-certiﬁed surgeon be               canceled, autopsies not
designated as Chief of Surgical Service and the       requested, and time and
facility director agreed.                             attendance documentation
                                                      needed improvement.
Our review found that the facility’s sharing
agreement with Elmendorf Air Force Base has         Impact: Improved quality care
not adequately served VA patients’ surgical           and compliance with policy.
needs. While the members of the surgical
staff acknowledged problems in the past             The purpose of the review was to determine
with obtaining adequate operating room time         whether multiple allegations made by a former
and supplies needed for the procedures they         employee had merit. We did not substantiate
performed at the joint venture hospital, they       allegations that medical center employees did
stated that the situation was addressed and has     not report a sentinel event, provided improper
improved over the past year. Therefore, we          treatment, or falsiﬁed autopsy documents.
made no recommendations regarding surgery           We also did not substantiate allegations
at the joint venture hospital. (Healthcare          that part-time physicians did not work their
Inspections, Surgical Service issues, Alaska        scheduled tours, medical residents were not
VA Healthcare System and Regional ofﬁce,            properly supervised, or increased physician
Anchorage, AK, 05-02527-205, 9/20/05)               workload prolonged clinic waiting times.
                                                    We did substantiate that cases of potential
                                                    medico-legal signiﬁcance were not consistently
                                                    identiﬁed and referred to law enforcement
                                                    authorities, autopsies were not consistently
                                                    requested per policy, and medical center
                                                    staff cancelled consultation requests prior to
                                                    notifying the patients’ providers. While not an
                                                    allegation, we noted that subsidiary time and
                                                    attendance reports were not always completed.

                                                    We recommended that VISN and Medical
                                                    Center Directors ensure that:
                                                        •	 Cases of potential medico-legal
        Alaska VA Healthcare System

             and Regional Ofﬁce

                                                           signiﬁcance are identiﬁed and referred to
               Anchorage, AK
                              appropriate law enforcement authorities.
                                                        •	 Authorized employees document referrals
                                                           to law enforcement authorities and their
                                                           ultimate disposition.




                                                  46

                                                       Ofﬁce of Healthcare Inspections


  •	 Providers review the medical records and
     reschedule cancelled consultations as
     needed.
  •	 Appropriate staff receive training on the
     consultation tracking system.
  •	 “Subsidiary Time and Attendance 

     Reports—Part Time Physicians” are 

     completed and signed as required. 


Because the medical center had implemented
a system to promote autopsy requests, we did
not make a recommendation. The VISN and
Medical Center Directors agreed with the
recommendations and provided acceptable
improvement plans. (Healthcare Inspection,
Patient Care, Fraud, and Mismanagement
Issues, VA Medical Center, San Juan, PR, 04-
02962-158, 6/24/05)




                                                 47

Ofﬁce of Healthcare Inspections





                                   Blank Page




                                    48
OFFICE OF MANAGEMENT
AND ADMINISTRATION
Mission Statement                                    I. HOTLINE DIVISION
   Promote OIG organizational effectiveness
   and efﬁciency by providing reliable and           The Hotline Division operates a toll-free
   timely management and administrative              telephone service, Monday through Friday,
   support, and providing products and               from 8:30 a.m. to 4 p.m. Eastern time.
   services that promote the overall mission         Anyone may report issues of criminal activity,
   and goals of OIG. Strive to ensure that           waste, and abuse through calls, letters,
   all allegations communicated to OIG are           faxes, and e-mail messages to its Web site at
   effectively monitored and resolved in a           vaoighotline@va.gov. The Hotline Division
   timely, efﬁcient, and impartial manner.           carefully considers all complaints and
                                                     allegations; OIG or other Departmental staff
The Ofﬁce of Management and Administration           address mission-related issues.
is responsible for a wide range of
administrative and operational support               Overall Performance
functions.
                                                     The following chart contains the Hotline’s
Resources                                            performance ﬁgures for both this reporting
                                                     period and FY 2005.
The Ofﬁce of Management and Administration
has 64 FTE allocated as indicated.
                                                              OIG Hotline Contacts and Cases
                                                                                       3/30/05    FY
                                                                                      through    2005
                                                                                       9/30/05   Total
               Financial &         Human
             Administration                              Contacts                        7,902   14,683
                                  Resources
                  13%               13%
   Operational                                           Cases opened                     568     1,020
    Support
      16%
                                                          Reviewed by OIG                 188      326
                                                          Referred to                     380      694
                                                          VA program ofﬁce
                                                         Cases closed                     462      969
                                                          Allegations substantiated       198      380
                                         Hotline
                          IT &            13%
                      Data Analysis
                                                          Administrative                    32      52
                          45%                             sanctions imposed
                                                          Corrective actions taken        130      255
                                                          Responses to                      50     100
                                                          congressional inquiries
                                                   49

Ofﬁce of Management and Administration


The monetary impact resulting from these             rampant abuse of time and attendance
cases totaled almost $400,000 for this reporting     regulations in the police service. A pattern of
period and almost $971,000 for FY 2005.              poor management resulted in low employee
Examples of validated contacts that required         morale. The chief of police retired, and
corrective action include the following.             management initiated disciplinary action
                                                     against one supervisor and the timekeeper
                                                     while reviewing the performance of another
Veterans Health 
                                    supervisor. A former VA police ofﬁcer was
Administration
                                      issued a $3,745 bill of collection to recover
                                                     sick leave advanced and never made up. The
Quality of Patient Care                              current chief of police is in the process of
                                                     reorganizing the service. This was 1 of 15
In 1 of 47 Hotline inquiry allegations regarding     allegations of time and attendance abuse.
deﬁciencies in the quality of patient care, a
VHA review determined several pharmacists            Cyber Security
had stopped checking dose carts. Management
                                                     In response to one of ﬁve allegations of
immediately reinstated reviewing all doses
                                                     deﬁcient or improper cyber security controls,
daily using a checklist, and counseled the
                                                     a VHA review concluded two physicians
supervisor for failure to detect and address the
                                                     installed a server on a medical center’s
departure from policy.
                                                     computer network without authorization,
                                                     resulting in numerous security vulnerabilities.
In another case, a VHA peer review                   IT staff cleaned the server’s drives and
determined that a physician displayed a              had it removed. Management proposed a
signiﬁcant lack of compassion and kindness,          3-day suspension for both physicians and
and that the attending nurse did not pursue her      implemented a surveillance program to
concerns about the patient’s discharge when          monitor the network and detect the presence of
the physician disagreed with her. Management         unauthorized devices.
counseled both the physician and the nurse and
ordered the emergency room staff to participate Patient Safety
in a refresher course on proper patient
management and documentation of treatment.      Among the ﬁve allegations of patient safety
                                                deﬁciencies at VA facilities was a complaint
Ethical Improprieties/Employee                  resulting in a VHA review determining that a
Misconduct                                      treatment provider failed to identify a patient’s
                                                colon cancer and the patient subsequently
One of the nine allegations of ethical          experienced a 7-week delay in being
improprieties/employee misconduct resulted in scheduled for a specialty clinic appointment.
VHA sustaining allegations against a physician Risk Management met with the veteran to
for patient abuse, hostile work environment,    discuss the diagnosis and its implications.
and conduct unbecoming a supervisor. The        The review also found other problems in the
physician was removed.                          delivery of health care involving the lack
                                                of communication between specialists and
Time and Attendance                             clinicians ordering tests. Management took
                                                action to resolve the problem.
A joint VHA and the Ofﬁce of Security and
Law Enforcement investigation uncovered

                                                   50

                                              Ofﬁce of Management and Administration


Contract Administration                              reprimand. Based on further investigation,
                                                     additional discipline is anticipated.
Responding to one of ﬁve allegations involving
violations of contract administration by
employees, a VHA review into improprieties
                                                     Veterans Beneﬁts
in connection with a prosthetics equipment           Administration
contract determined that VA employees were
confused about the procedures for placing            Receipt of VA Beneﬁts
orders once the maximum order limit had
been reached under the subject contract.             In 1 of the 40 allegations involving
Management issued guidance to clarify those          improprieties in the receipt of VA beneﬁts,
procedures.                                          a VBA review determined a veteran and his
                                                     spouse were receiving a VA pension though
Facilities and Services
                                                     their combined gross incomes exceeded the
A VHA review determined an emergency                 pension threshold. In addition, they owned a
room clerk did not respond appropriately             home and land valued at over $400,000. The
when a patient’s daughter requested help for         regional ofﬁce terminated the veteran’s pension
her unconscious father. The clerk’s supervisor       and assessed an overpayment of $72,013.
counseled him, providing guidance on how to
respond more appropriately in the future. This       Upon receipt of information that a veteran
was 1 of 15 allegations of deﬁciencies with VA       receiving pension beneﬁts was gainfully
facilities or services.                              employed and owned a business, VBA twice
                                                     requested the veteran provide eligibility
We also pursued ﬁve allegations regarding            veriﬁcation reports covering 1994 to the
Privacy Act/HIPAA issues by VA facilities,           present. When the veteran failed to respond,
including a case in which a VHA review               the VARO terminated his beneﬁts and assessed
determined a company in India hired through a        an overpayment of $116,123.
VA contractor threatened to disclose veterans’       Facilities and Services
medical information over the Internet when the
VA contractor failed to pay the subcontractor.       In response to 1 of 15 allegations regarding
VHA paid the subcontractor, which certiﬁed           deﬁciencies with facilities or the services
the electronic records were deleted and hard         provided, a VBA review determined a
copies destroyed. VHA is in the process              computer program limitation resulted in the
of determining whether to terminate the              full amount of a veteran’s insurance policy
contractor’s current contract and/or to disallow     being incorrectly reported to the veteran
its further competition for VA contracts.            and in a response to a congressional inquiry.
                                                     Management divided the single policy into two
Abuse of Authority
                                                     policies of equal value to facilitate reporting in
One of the ﬁve allegations regarding abuse           the future.
of authority resulted in a management review
that conﬁrmed the allegation of an employee
verbally abusing patients. The employee
received counseling on the importance of
customer service and was later issued a written


                                                   51

Ofﬁce of Management and Administration


II. OPERATIONAL                                    the general public, and subjects of
                                                   investigations.
SUPPORT DIVISION
                                                        Status of FOIA/PA/Disclosure Activities
The Operational Support Division is
responsible for following up on OIG reports,                                         4/1/05     FY
responding to Freedom of Information                                               through     2005
Act/Privacy Act (FOIA/PA) requests,                                                 9/30/05    Total
conducting policy reviews and development,             Requests processed                139     287
and conducting strategic, operational, and
                                                       Reports released                  119     350
performance planning. It also provides
electronic report distribution, oversees IG            Requests denied                    10       15
reporting requirements, and reviews the impact
of proposed legislation and regulations.               Partial withholdings              56      133
                                                       Requests where no written          0            0
Follow-Up on OIG Reports
                                                       response was released
                                                       within 20 days of receipt
Operational Support is responsible for
obtaining implementation actions on                    Cases pending over                 0            0
                                                       6 months
previously issued audits, inspections, and
reviews with over $21.78 billion of actual
or potential monetary beneﬁts during this          Electronic Report Distribution
reporting period. As of September 30, 2005,
VA had 152 open OIG reports with 612               In compliance with the President’s e-
unimplemented recommendations.                     Government initiatives, as described at
                                                   http://www.whitehouse.gov/omb/egov, OIG
   Closed Reports and Recommendations              distributes reports through a link to the OIG
                                                   Web page. Recipients receive a short e-mail
                              4/1/05    FY         describing the report, with a link that takes
                            through    2005        them directly to the report.
                             9/30/05   Total
Reports                           83      157                 Electronic Report Distribution

Recommendations                  752    1,451                                        4/1/05     FY
                                                                                   through     2005
Monetary beneﬁts                $532   $1,812                                       9/30/05    Total
(in millions)
                                                       CAP reports released              30        67
                                                       Non-CAP reports released          20        46
Freedom of Information Act,
Privacy Act, and Other Disclosure
                                                   Review and Impact of Legislation
Activities
                                                   and Regulations
Operational Support processes all OIG FOIA/        Operational Support coordinated concurrences
PA requests from Congress, veterans, veterans      on 28 legislative, 31 regulatory, and 72
service organizations, VA employees, news          administrative proposals from the Congress,
media, law ﬁrms, contractors, complainants,


                                                 52

                                                Ofﬁce of Management and Administration


OMB, and VA. OIG commented and made                  accommodate the increasing growth of the
recommendations concerning the impact of             database due to a new document uploading
legislation and regulations on economy and           feature and an upgrade of the test environment.
efﬁciency in administration of programs and
operations or the prevention and detection of        Enhancements to the MCI system included the
fraud and abuse.                                     modiﬁcation of Hotline contact form to allow
                                                     for PDF and MS Word document uploading
III. INFORMATION                                     and viewing. An OIG inventory tracking form
                                                     was created and is in the testing phase. Staff
TECHNOLOGY AND                                       responded to numerous requests for reports and
DATA ANALYSIS                                        modiﬁed existing reports and forms.
DIVISION                                             Internet and Electronic FOIA

                                                     The Division is responsible for processing
The Information Technology and Data                  and controlling electronic publication of OIG
Analysis Division provides information               reports, including maintaining the OIG Web
technology support services to all components        sites and posting OIG reports on the Internet.
of OIG. It has responsibility for the continued      Data ﬁles on the OIG Web site were accessed
development and operation of the Master Case         2.3 million times by almost 1,027,000 visitors.
Index (MCI), as well as OIG’s Internet and           OIG reports, vacancy announcements, and
Intranet resources. The Division interfaces with     other publications accounted for over 958,000
VA information technology units nationwide           downloads from our Web sites, providing
to provide a broad array of IT support. OIG’s        both timely access to OIG customers and cost
Chief Information Ofﬁcer and staff represent         avoidance in the reduced number of reports
OIG on numerous intra- and inter-agency              printed and mailed.
information technology organizations and are
responsible for strategic planning and policy        Information Resources
development in support of all OIG information        Management
technology requirements. The Data Analysis
Section (DAS) in Austin, TX, provides data           Staff completed a nationwide inventory of
gathering and analysis support to employees of       OIG IT equipment, which replaces an outdated
OIG, as well as VA and other Federal agencies,       IT inventory system that has problems with
requesting information contained in VA               missing and incomplete records. The project
automated systems.                                   involved a physical inventory and collection of
                                                     the technical speciﬁcations of the hardware for
Overall Performance                                  use in better planning lifecycle replacement of
                                                     IT equipment.
Database Management
                                                     Field Support Section
MCI is the primary information system
supporting OIG’s case management and                 The Field Support Section (FSS) coordinates,
decision making. This system supports nearly         and manages IT support for all OIG elements
400 users in 25 locations. During this reporting     outside Washington, DC. During this reporting
period, four 70-gigabyte hard drives were            period the FSS negotiated the creation of a
installed in the Oracle production server to         national Organizational Unit (OU) within the


                                                   53

Ofﬁce of Management and Administration


VA network structure for OIG users hosted at         Overall Performance
VHA facilities. This national OU will allow
the consolidation of OIG VHA user accounts           Budget
under one easily managed unit.
                                                     The staff assisted in the preparation of the
Data Analysis Section                                FY 2007 budget submission and materials
                                                     for associated hearings with VA, Ofﬁce
DAS develops proactive computer proﬁles              of Management and Budget (OMB), and
that search VA computer data for patterns of         Congress.
inconsistent or irregular records with a high
potential for fraud and refers these leads to        Travel
OIG auditors and investigators for further
                                                     By the nature of our work, OIG personnel
review. DAS provides technical assessments
                                                     travel almost continuously. As a result, we
and support to all elements of OIG and other
                                                     processed 2,074 travel vouchers and 19 new
Governmental agencies needing information
                                                     permanent change of station authorities.
from VA computer ﬁles. Signiﬁcant efforts
include the following.                               Administrative Operations
  •	 Using data mining to detect potential 

     fraud in VA computer systems.
                  The administrative staff works closely with
                                                     VA Central Ofﬁce administrative ofﬁces and
  •	 Developing Fugitive Felon Program 
             building management to coordinate various
     matches. 
                                      administrative functions, ofﬁce renovation
  •	 Providing technical support and data to all     plans, telephone installations, and the
     CAP health care reviews.                        procurement of furniture and equipment.
                                                     During 2005, Administrative Operations
  •	 Providing 348 ﬁles and reports for OIG's        opened an Ofﬁce of Healthcare Inspections
     analysis of beneﬁt payment variations.          in Kansas City, MO and expanded the Bay
                                                     Pines, FL ofﬁce to include Ofﬁce of Audit and
During the reporting period, DAS completed           Ofﬁce of Healthcare Inspections personnel,
178 ad hoc requests for data requests from OIG       making Bay Pines a new Regional Ofﬁce.
operational elements.                                In addition, administrative staff processed
                                                     195 procurement actions (21 acquisition and
IV. FINANCIAL AND                                    174 credit card transactions), and reviewed
                                                     and approved monthly the 40 statements
ADMINISTRATIVE                                       received from OIG’s cardholders under the
SUPPORT DIVISION                                     Government’s purchase card program. The
                                                     Division also strengthened internal control
                                                     procedures for the review of credit cards
The Financial and Administrative Division            and established internal controls to provide
provides support services for the entire             increase oversight over the Transit Beneﬁt
OIG. Services include budget formulation,            Program.
presentation, and execution; travel processing;
procurement; space and facilities management;
and general administrative support.



                                                   54

                                             Ofﬁce of Management and Administration


V. HUMAN RESOURCES                                  the most beneﬁcial courses for continued
                                                    professional development.
MANAGEMENT
DIVISION                                            Another education and training initiative
                                                    undertaken this reporting period is The
                                                    Human Resources Newsletter for Supervisors.
The Division provides human resources               This quarterly publication keeps the OIG
management services for the entire OIG. These       management staff abreast of new developments
services include internal and external stafﬁng,     in human resources and offers practical advice
classiﬁcation, pay administration, employee         in solving workplace issues.
relations, beneﬁts, performance and awards,
and management advisory assistance. It also
serves as liaison to the VA Central Ofﬁces of
Human Resources and Payroll that process
OIG actions into the VA integrated payroll and
personnel system.

Overall Performance
Human Resources Management

During this period, 60 new employees joined
the OIG workforce and 17 departed. The
current on-board strength is at its highest
level in OIG history with 469 employees in
authorized positions and 24 employees in
positions reimbursed by the Department. The
staff processed 122 recruitment and placement
actions, processed 401 awards, and enrolled
40 employees in advanced leadership and
management development classes.

In July, we joined with 34 other OIGs in
“IG E-Learning,” a pilot program coordinated
by the PCIE to assess the effectiveness of
on-line learning. IG E-Learning provides our
workforce with access to over 2,000 training
courses and a library of over 7,000 reference
books with key-word search capability. As
a member of the PCIE E-Learning Steering
Committee, the Division staff helped design
learning programs of recommended courses
for the most common occupational disciplines
in the inspector general community. These
programs will assist employees in choosing



                                                  55

Ofﬁce of Management and Administration





                      Blank Page




                                   56

OTHER SIGNIFICANT OIG ACTIVITIES


Inspector General Grifﬁn                            President’s Council on
Leaves VA OIG                                       Integrity and Efﬁciency
• Inspector General Richard J. Grifﬁn left          • The OIG Financial Audits Division staff
OIG in July after nearly 8 years to accept          participated in the audit executive committee
a presidential appointment as the State             workgroup on ﬁnancial statements. The
Department's Assistant Secretary for the            workgroup facilitates communication of
Bureau of Diplomatic Security and Director          ﬁnancial statement audit issues throughout the
of the Ofﬁce for Foreign Missions. Secretary        Federal community. Also, an audit manager
R. James Nicholson presented the departing          from the Financial Audit Division was the
Inspector General VA's Exceptional Service          chairperson of the task force, which developed
Award, noting that Mr. Grifﬁn's integrity,          a standard statement of work for ﬁnancial
leadership, and executive excellence                statement audits to be used by the OIGs. This
“produced a rich legacy noteworthy for the          audit manager is also the chairperson of the
remarkable impact on VA programs and in the         task force, which is currently developing
high performing, professional organization that     standard technical evaluation criteria for
you leave behind.”                                  evaluating bidders’ proposals.
                                                    • The Director of the Information Technology
                                                    Audit Division is the subcommittee chair of
                                                    the Policy Review Committee, IT Security
                                                    Committee. The Policy Review Committee
                                                    is chartered to review OMB and National
                                                    Institute of Standards and Technology
                                                    publications and to coordinate a consolidated
                                                    response from the IG community.
                                                    • The Director of the Information Technology
                                                    Audit Division is the Ofﬁce of Audit
                                                    representative to the PCIE IT Roundtable.
                                                    • The Director of the Information Technology
                                                    Audit Division attended the CIO Council
                                                    presentation on improving the Federal
                                                    Information Security Management Act grades.

                                                    IT Security Committee
                                                    • The Director of the Information Technology
       Secretary Nicholson presents
                Audit Division made a presentation on the OIG
      VA's Exceptional Service Award

        to Inspector General Grifﬁn
                viewpoint of the state of VA security at the
                                                    National Information Security Conference in
                                                    Dallas, TX. Over 1,400 VA staff attended the
                                                    security conference.
                                                  57

Other Signiﬁcant OIG Activities


OIG Management                                    Ofﬁce of Acquisition and Materiel
Presentations                                     Management’s Acquisition Forum
                                                  on Health Care Contracting
Federal Audit Executive Council                   • Representatives from OIG’s Contract
• In April 2005, the Human Resources              Review and Evaluation Division and the
Director made a presentation at the Federal       Counselor to the Inspector General made
Audit Executive Council conference in             several presentations to VA contracting
Williamsburg, VA. The presentation addressed      personnel at VA Acquisition Forums. The
recruitment and retention issues facing the       presentations covered various aspects of
inspector general community. The PCIE             contracting with afﬁliates for health care
Roundtable provides education on information      resources.
technology audit and investigative activities
within the OIG community. The Director of         VISN 17 Training on Health Care
the Planning Division represented the Ofﬁce       Contracting
of Audit and was appointed to the Council's       • Representatives from OIG’s Contract
Human Resource Committee.                         Review and Evaluation Division and the
                                                  Counselor to the Inspector General conducted
NAVREF conference                                 a 2-day training course for contracting ofﬁcers,
• The Deputy Assistant Inspector General          contracting ofﬁcers’ technical representatives,
for the Ofﬁce of Investigations addressed the     administrative ofﬁcers, service chiefs, heads of
annual conference of the National Association     contracting, and chief logistics ofﬁcers. The
of Veterans Research and Education Foundation     training covered various aspects of contracting
(NAVREF).                                         with afﬁliates for health care resources.

VA Workers’ Compensation                          Center for Business Intelligence
                                                  Medicaid Rebates Conference
Steering Committee
                                                  • An Audit Manager in the Contract Review
• The Audit Project Manager made                  and Evaluation Division made a presentation
presentations at VA Workers’ Compensation         on Public Law 102-585, Section 603 to
(WC) Steering Committee meetings that             industry representatives.
discussed past work and program ﬁndings.
The WC Steering Committee was established         IGATI Training
to prepare a WC strategic plan and coordinate     • An Audit Manager in the Contract Review
implementation actions VA-wide in response        and Evaluation Division was the instructor for
to OIG related WC ﬁndings and recommenda-         the “How to use IDEA” class. IDEA is a software
tions for program improvement.                    tool used to conduct various types of data
                                                  analysis such as extractions, summarizations,
SmartPay Conference
                                                  comparative studies, and statistical sampling.
• The Project Manager, Bedford Audit
Operation Division, made a presentation on        2004 Federal Human Capital
CAP review coverage of VA’s Government            Survey
Purchase Card Program at VA’s annual              • In May 2005, the Ofﬁce of Personnel
conference in Boston, MA.                         Management released the results of a survey
                                                  of over 147,000 Federal employees. The


                                                58

                                                               Other Signiﬁcant OIG Activities


purpose of the survey was to gather employees’        testiﬁed before the Veterans Disability Beneﬁts
perspectives on factors that characterize             Commission on OIG’s national review of the
high-performing organizations throughout              consistency of VA disability compensation
Government. VA OIG was ranked 32 of                   payments made to veterans in different states.
218 subcomponents and small agencies
surveyed. OIG employees rated managers and            Awards
management practices as much as 30 percent
higher than other Federal workers on such             Excellence in Government Award
topics as performance culture, leadership, and        • At the Fourth Annual Awards Gala for
learning. Other results showed high levels            Outstanding Leaders in Human Resources,
of satisfaction with pay, beneﬁts, alternate          Joanne Moffett, OIG Director of Human
work schedules, and access to information             Resources, received one of two awards for
technology tools.                                     Excellence in Government for her leadership
                                                      of OIG's outstanding Human Resources
Congressional Testimony                               team from HR Leadership Awards of Greater
• In July 2005, the Director of the                   Washington.
Contract Review and Evaluation Division,
testiﬁed before a Senate Committee on
Homeland Security and Governmental
Affairs Subcommittee on Federal Financial
Management, Government Information,
and International Security hearing on the
General Services Administration (GSA) called
“GSA—Is the Taxpayer Getting the Best
Deal?” The Director’s testimony discussed the
beneﬁts of preaward and postaward audits of
VA’s FSS proposals and contracts in helping
ensure that VA is getting the best possible price
for the taxpayer. The Director proposed that
Congress consider transferring the 11 health
care schedules VA currently manages (under
delegation) from GSA to VA, providing VA
with complete rule-making authority for the
schedules.

Brieﬁngs
                                                          Inspector General Richard J. Grifﬁn and 

• In May 2005, the Deputy Inspector General                           Joanne Moffett

briefed representatives from 12 veterans
service organizations and answered questions
on the OIG national review involving the
consistency of VA disability compensation
payments made to veterans in different states.
• In June 2005, the Deputy Inspector General
and the Assistant Inspector General for Audit


                                                    59

Other Signiﬁcant OIG Activities





                          Blank Page




                                   60
                                      APPENDIX A

                     DEPARTMENT OF VETERANS AFFAIRS
                       OFFICE OF INSPECTOR GENERAL
                           REVIEWS BY OIG STAFF

 Report                                                    Funds Recommended
Number/                                                       for Better Use Questioned
Issue Date                 Report Title                     OIG     Management       Costs


COMBINED ASSESSMENT PROGRAM REVIEWS


05-00029-127   Combined Assessment Program Review of        $259,500     $259,500
4/22/05        the VA Medical Center Durham, NC
05-00523-128   Combined Assessment Program Review of       $2,057,818   $2,057,818
4/22/05        the VA Puget Sound Health Care System
               Seattle, WA
04-03403-133   Combined Assessment Program Review           $294,491     $294,491
5/5/05         of the Central Texas Veterans Health Care
               System Temple, TX
04-03069-135   Combined Assessment Program Review of        $108,849     $108,849
5/5/05         the Sioux Falls VA Medical Center Sioux
               Falls, SD
05-00029-134   Combined Assessment Program Review of        $217,968     $217,968
5/6/05         the VA Regional Ofﬁce Los Angeles, CA
05-00115-136   Combined Assessment Program Review of        $112,938     $112,938
5/6/05         the VA Medical Center Hampton, VA
04-01893-148   Combined Assessment Program Review of        $435,286     $435,286
6/2/05         the VA Medical Center St. Louis, MO
04-03120-151   Combined Assessment Program Review of        $974,797     $974,797
6/6/05         the VA Medical Center Cincinnati, OH
05-00839-156   Combined Assessment Program Review of         $49,851      $49,851
6/24/05        the VA Central Iowa Health Care System
               Des Moines, IA
05-00735-160   Combined Assessment Program Review            $86,133      $86,133
6/27/05        of the VA Northern California Health Care
               System Sacramento, CA
05-00820-161   Combined Assessment Program Review of        $371,355     $371,355
6/27/05        the VA Regional Ofﬁce Baltimore, MD


                                               61

  Report                                                    Funds Recommended
 Number/                                                       for Better Use   Questioned
Issue Date                Report Title                       OIG     Management   Costs
05-01248-170   Combined Assessment Program Review of          $31,474      $31,474
7/8/05         the VA Salt Lake Health Care System Salt
               Lake City, UT
05-00502-171   Combined Assessment Program Review of
7/8/05         the VA Medical Center Miami, FL
04-03270-172   Combined Assessment Program Review of         $110,934     $110,934
7/8/05         the VA Medical Center Louisville, KY
04-01138-173   Combined Assessment Program Review of         $548,780     $548,780
7/13/05        the VA New York Harbor Healthcare System
               New York, NY
05-01241-174   Combined Assessment Program Review            $452,613     $452,613
7/19/05        of the VA Pittsburgh Health Care System
               Pittsburgh, PA
05-00313-176   Combined Assessment Program Review            $115,957     $115,957
7/21/05        of the Manchester VA Medical Center
               Manchester, NH
05-01816-184   Combined Assessment Program Review of          $75,769      $75,769
8/15/05        the VA Regional Ofﬁce Boise, ID
05-01227-185   Combined Assessment Program Review of         $405,960     $405,960
8/15/05        the VA Regional Ofﬁce Milwaukee, WI
05-01141-186   Combined Assessment Program Review of         $443,607     $443,607
8/15/05        the New Mexico VA Health Care System
               Albuquerque, NM
05-01468-190   Combined Assessment Program Review of         $448,495     $448,495
8/15/05        the VA Regional Ofﬁce Huntington, WV
05-01009-197   Combined Assessment Program Review of         $751,621     $751,621
9/8/05         the VA Regional Ofﬁce Washington, DC
05-00082-198   Combined Assessment Program Review of          $29,698      $29,698
9/9/05         the Harry S. Truman Memorial Veterans’
               Hospital Columbia, MO
05-01655-199   Combined Assessment Program Review of         $675,522     $675,522
9/15/05        the VA Medical Center Wilmington, DE
05-02240-206   Combined Assessment Program Review of         $147,002     $147,002
9/22/05        the Alaska VA Healthcare System Anchorage,
               AK
05-01226-211   Combined Assessment Program Review           $1,068,302   $1,068,302
9/29/05        of the John D. Dingell VA Medical Center
               Detroit, MI




                                               62

  Report        
                                                       Funds Recommended

 Number/ 
                                                                 for Better Use 
 Questioned

Issue Date 
                    Report Title                             OIG     Management
  Costs

05-01837-214        Combined Assessment Program Review of                $201,577       $201,577
9/30/05             the Central Arkansas Veterans Healthcare
                    System Little Rock, AR
05-01383-215        Combined Assessment Program Review of                $978,204       $978,204
9/30/05             the William S. Middleton Memorial Veterans
                    Hospital Madison, WI
05-00859-216        Combined Assessment Program Review of               $1,748,517    $1,748,517
9/30/05             the VA Connecticut Healthcare System West
                    Haven, CT
05-02007-219        Combined Assessment Program Review of                $943,373       $943,373
9/30/05             the Southern Arizona VA Health Care System
                    Tucson, AZ

INTERNAL AUDITS


04-00986-120	       Management Letter, Audit of VA’s Fiscal
4/22/05	            Years 2004 and 2003 Consolidated
                    Financial Statements Network Vulnerability
                    Assessment at VA Medical Center Hampton,
                    VA
04-02887-169        Audit of the Veterans Health Administration’s
7/8/05              Outpatient Scheduling Procedures
05-00195-195        Audit of Pharmacy Service at VA Medical
9/2/05              Center Miami, FL
05-00055-204	       Management Letter, Fiscal Year 2005 Federal
9/16/05	            Information Security Management Act
                    (FISMA) Audit of the Hines Information
                    Technology Center
04-02330-212        Audit of VA Acquisition Practices for the          $4,700,000     $4,700,000
9/30/05             National Vietnam Veterans Longitudinal
                    Study

OTHER OFFICE OF AUDIT REVIEWS

05-00765-137        Review of State Variances in VA                 $19,780,000,000          $0
5/19/05             Disability Compensation Payments
05-02067-164	       Evaluation of Allegation that Disabled
7/1/05	             Laundry Workers Were Not Properly
                    Compensated at the VA Medical Center St.
                    Louis, MO
05-01096-218        Department of Veterans Affairs Fiscal Year
9/29/05             2005 Agreed-Upon Procedures for Payroll


                                                     63
  Report                                                                          Funds Recommended
 Number/                                                                             for Better Use   Questioned
Issue Date                            Report Title                                 OIG     Management   Costs

CONTRACT PREAWARD REVIEWS*

05-01441-126	          Review of Proposal Submitted by                         $299,870
4/7/05                 University Radiologists of Cleveland,
                       Under Solicitation Number 541-016-05,
                       for Nuclear Medicine Services at Louis
                       Stokes VA Medical Center
05-01148-129	          Review of Proposal Submitted by                         $961,861
4/21/05	               the University of Miami, School of
                       Medicine, Under Solicitation Number
                       546-12-05 for Neurological Surgery
                       Services at the Department of Veterans
                       Affairs Medical Center, Miami
05-00623-130	          Review of Proposal Submitted by                          $48,350
4/21/05	               University of Wisconsin Medical
                       School, Under Solicitation Number
                       RFP 69D-315-04, for Interventional
                       Radiology Back-Up Services at William
                       S. Middleton Memorial Veterans
                       Hospital, Madison, WI
05-01537-131	          Review of Proposal Submitted by
4/27/05	               CRAssociates, Inc., Under Solicitation
                       Number 674-122-04, for Primary and
                       Preventive Medical Care and Mental
                       Health Services to the Department of
                       Veterans Affairs, Central Texas Veterans
                       Health Care System Marlin, TX
04-01682-132	          Review of Federal Supply Schedule                   $59,422,843
4/28/05	               Proposal Submitted by Sandoz, Inc.,
                       Under Solicitation Number M5-Q50A-
                       03
05-00891-139	          Review of Proposal Submitted by                         $148,088
5/17/05	               Brigham and Women’s Hospital, Under
                       Solicitation Number 523-66-05, for
                       Orthopedic Surgeon Services at the
                       Department of Veterans Affairs, Boston
                       Healthcare System
05-00892-140	          Review of Proposal Submitted by                         $169,265
5/17/05	               Brigham and Women’s Hospital,
                       Under Solicitation Number 523-61-
                       05, for Hand Surgeon Services at the
                       Department of Veterans Affairs, Boston
                       Healthcare System
*   Management estimates are not applicable to contract reviews. Cost avoidances resulting from these reviews are determined
    when the OIG receives the contracting ofﬁcer’s decision on the recommendations


                                                               64

  Report       
                                                Funds Recommended
 Number/ 
                                                         for Better Use   Questioned
Issue Date 
                  Report Title                       OIG     Management   Costs
04-01763-138       Review of Federal Supply Schedule        $4,906,449
5/18/05            Proposal Submitted by Eastman Kodak
                   Company Under Solicitation Number
                   M5-Q50A-03
05-01536-141       Review of Proposal Submitted by           $271,047
5/18/05            the Loyola University Physician
                   Foundation, Under Solicitation Number
                   69D-035-05 for Anesthesiology Services
                   at the Edward Hines Department of
                   Veterans Affairs Medical Center
05-00453-142       Review of Federal Supply Schedule
5/19/05            Proposal Submitted by A-dec,
                   Incorporated, Under Solicitation
                   Number RFP 797-652C-04-0001
04-02292-143       Review of Federal Supply Schedule          $45,099
5/23/05            Proposal Submitted by Pﬁzer, Inc.,
                   Under Solicitation Number M5-Q50A-
                   03
05-01650-145       Review of Proposal Submitted by          $2,606,184
5/23/05            University of New Mexico, Under
                   Solicitation Number 501-27-04 for
                   Radiation Oncology Services to the New
                   Mexico VA Health Care System
05-01215-146       Review of Proposal Submitted by New      $3,902,952
5/24/05            York University, School of Medicine,
                   Under Solicitation Number RFP 10N3-
                   102-05 for Cardiothoracic Surgery
                   Services at Department of Veterans
                   Affairs, New York Harbor Healthcare
                   System
05-01118-152       Review of Proposal Submitted by
6/3/05             Medical University of South Carolina,
                   Under Solicitation Number RFP 247-
                   0057-05 for Radiation Oncology
                   Services to the Ralph H. Johnson VA
                   Medical Center
05-00452-150       Review of Federal Supply Schedule        $3,666,173
6/7/05             Proposal Submitted by BioMerieux Inc.,
                   Under Solicitation Number RFP-797-
                   FSS-03-0001




                                                  65
  Report       
                                                   Funds Recommended
 Number/ 
                                                            for Better Use   Questioned
Issue Date 
                  Report Title                          OIG     Management   Costs
05-01535-153       Review of Proposal Submitted by the          $511,985
6/7/05             University of New Mexico, Health
                   Sciences Center, Under Solicitation
                   Number 501-0014-05 for Brachytherapy
                   Treatment Services for the New Mexico
                   Veterans Affairs Health Care System
05-01197-159       Review of Proposal Submitted by              $306,574
6/23/05            Medical University of South Carolina,
                   Under Solicitation Number RFP 247-
                   0285-04, for Orthopedic Services at
                   Ralph H. Johnson VA Medical Center
05-01711-163       Review of Proposal Submitted by             $2,306,863
6/29/05            Virginia Commonwealth University
                   Health System, Under Solicitation
                   Number RFP 246-05-01774, for Liver
                   Transplant Services to Hunter Holmes
                   McGuire VA Medical Center
04-01763-165       Review of Federal Supply Schedule             $22,801
7/1/05             Proposal Submitted by Monarch
                   Pharmaceuticals, Inc., Under Solicitation
                   Number M5-Q50A-03
05-01424-166       Review of Proposal Submitted by
7/5/05             Roxane Laboratories, Inc. to Modify
                   Contract Number V797P-5771x
04-01182-168       Review of Federal Supply Schedule           $4,922,615
7/8/05             Proposal Submitted by Roche
                   Laboratories Inc., Under Solicitation
                   Number M5-Q50A-03
05-01649-178       Review of Proposal Submitted by              $193,250
7/20/05            Indiana University, Under Solicitation
                   Number 583-44-05, for Cardiovascular
                   Surgeon Services at Richard L.
                   Roudebush VA Medical Center
05-01766-179       Review of Proposal Submitted                 $770,064
7/28/05            by University Physicians, Under
                   Solicitation Number 438-23-04, for
                   Non-Invasive Cardiac Services at the
                   Department of Veterans Affairs Medical
                   Center Sioux Falls, SD
05-01844-182       Review of Proposal Submitted by the         $1,682,908
8/9/05             University Medical Center Corporation,
                   Under Solicitation Number 678-0131-
                   04, for Radiation Oncology Services for
                   the Southern Arizona Veterans Affairs
                   Health Care System

                                                    66

  Report       
                                                   Funds Recommended
 Number/ 
                                                            for Better Use   Questioned
Issue Date 
                   Report Title                         OIG     Management   Costs
05-02810-187       Review of Proposal Submitted by             $2,387,587
8/11/05            University of Pittsburgh Physicians,
                   Under Solicitation Number 244-05-
                   00920, for Anesthesiology Physician
                   Services at VA Pittsburgh Health Care
                   System
05-01907-191       Review of Proposal Submitted by              $161,695
8/12/05            Indiana University School of Medicine,
                   Under Solicitation Number RFP 583-16-
                   05, for Hematology/Oncology Services
                   at Richard L. Roudebush VA Medical
                   Center
05-02669-192       Review of Proposal Submitted by the
8/17/05            University of Nevada - Reno, Under
                   Solicitation Number 261-0176-05, for
                   Cardiology Physician Services at the VA
                   Sierra Nevada Health Care System
05-01763-193       Review of Proposal Submitted by
8/18/05            University Physicians of Brooklyn,
                   Under Solicitation Number RFQ 10N3-
                   089-05, for Radiology Services for
                   Brooklyn Campus VA Medical Center
05-01682-194       Review of Federal Supply Schedule
8/25/05            Proposal Submitted by Schick
                   Technologies, Inc,. Under Solicitation
                   Number RFP-797-652C-02-0001
05-00723-200       Review of Federal Supply Schedule
9/15/05            Proposal Submitted by Mylan
                   Pharmaceuticals, Inc., Under Solicitation
                   Number M5-Q50A-03
05-02232-208       Review of Proposal Submitted by the         $1,417,412
9/22/05            University of California - Irvine, Under
                   Solicitation Number 600-982-05, for
                   Anesthesiology Services at the Long
                   Beach VA Healthcare System
05-02563-209       Review of Proposal Submitted by              $684,454
9/22/05            University of Miami, School of
                   Medicine, Under Solicitation Number
                   RFP 546-46-05, for Cardiothoracic
                   Surgery Services at VAMC Miami
05-01754-210       Review of Federal Supply Schedule
9/26/05            Proposal Submitted by Organon USA,
                   Inc., Under Solicitation Number M5-
                   Q50A-03


                                                    67
  Report                                                         Funds Recommended
 Number/                                                            for Better Use   Questioned
Issue Date                    Report Title                        OIG     Management   Costs
05-02310-213	      Review of Proposal Submitted by             $268,884
9/27/05	           Medical College of Wisconsin, Under
                   Solicitation Number RFQ 69D-156-05,
                   for Radiology Services for Clement J.
                   Zablocki VA Medical Center

CONTRACT POSTAWARD REVIEWS

05-00262-119    Veriﬁcation of Par Pharmaceutical Inc.’s                               $62,369
4/1/05          Self-Audit Under Federal Supply Schedule
                Contract Number V797P-5295x
05-00454-123    Final Report Review of Claim Submitted
4/4/05          by JCJS Enterprises, Inc. d/b/a Slim ‘N Lite
                Optical Under Contract Number V249P-0456
05-01581-121 Review of Pharmion Corporation’s Voluntary                                 $5,138
4/6/05       Disclosure and Refund Offer Under Federal
             Supply Schedule Contract Number V797P-
             5619x
05-00424-125    Review of Johnson and Johnson Ortho                                    $52,957
4/6/05          Clinical Diagnostics’ Voluntary Disclosure
                and Refund Offer on Federal Supply
                Schedule Contract V797P-5383x
05-01315-144    Veriﬁcation of Elan Pharmaceutical Inc.’s                                $366
5/20/05         Refund Offer Under Federal Supply
                Schedule Contract Number V797P-5161x
05-01307-147    Veriﬁcation of Novo Nordisk Inc.’s Self-                                 $782
5/26/05         Audit Under Federal Supply Schedule
                Contract Number V797P-5224x
05-01424-155    Veriﬁcation of Roxane Laboratories Inc.’s                                 $94
6/16/05         Refund Offer Under Federal Supply
                Schedule Contract Number V797P-5348x
05-02133-162    Review of SAB-Pharma, Inc. c/o Sandoz,                                  $2,414
6/28/05         Inc.’s Voluntary Disclosure Under Federal
                Supply Schedule Contract Number V797P-
                5693x
05-02436-183    Review of Pharmacia & Upjohn Inc.’s                                   $108,919
8/11/05         Voluntary Disclosure and Refund Offer
                Under Federal Supply Schedule Contract
                Number V797P-5331x
05-02364-188    Review of Hospira Worldwide, Inc.’s                                    $19,077
8/11/05         Voluntary Disclosure and Refund Offer
                Under Federal Supply Schedule Contract
                Number V797P-5396x


                                                   68
  Report                                                     Funds Recommended
 Number/                                                        for Better Use   Questioned
Issue Date                   Report Title                     OIG     Management   Costs
04-01258-189   Review of KPMG’s Analysis of Monarch                               $953,626
8/16/05        Pharmaceuticals’ Compliance Review
               Concerning Federal Supply Schedule
               Contract V797P-5185x
05-02439-202   Review of Amphastar-IMS, Ltd. Voluntary                              $4,918
9/20/05        Disclosure and Refund Offer Under Federal
               Supply Schedule Contract Number V797P-
               5742x
05-02135-217   Review of Upsher-Smith Laboratories, Inc.’s                          $2,770
9/29/05        Voluntary Disclosure and Refund Offer
               Under Federal Supply Schedule Contract
               Number V797P-5783x

HEALTHCARE INSPECTIONS


05-00641-149 Healthcare Inspection, Review of Quality of
6/1/05       Care Department of Veterans Affairs
             James A. Haley Medical Center Tampa, FL
04-02962-158 Healthcare Inspection, Patient Care, Fraud,
6/24/05      and Mismanagement Issues VA Medical
             Center San Juan, PR
04-03437-175 Healthcare Inspection, Alleged Denial of
7/19/05      Care VA Medical Center Birmingham, AL
04-00235-180 Healthcare Inspection, Inspection of Veterans
8/4/05       Health Administration Patient Transportation
             Services
05-00198-181 Allegation of Substandard Cardiac
8/4/05       Catheterization Care Hunter Holmes
             McGuire VA Medical Center Richmond, VA
04-01946-196 Healthcare Inspection, Patient Care and
9/2/05       Stafﬁng Issues Gulf Coast Veterans Health
             Care System Biloxi, MS
05-02118-201   Quality of Care, Customer Service, and
9/19/05        Environment of Care, VA Western New York
               Healthcare System Buffalo, NY
05-02527-205 Healthcare Inspection, Surgical Service
9/20/05      Issues Alaska VA Healthcare System and
             Regional Ofﬁce Anchorage, AK




                                                 69

  Report                                                            Funds Recommended
 Number/                                                               for Better Use   Questioned
Issue Date                    Report Title                           OIG     Management   Costs
ADMINISTRATIVE INVESTIGATIONS

04-01235-154 Administrative Investigation, Supervision
6/17/05      of Physician Time and Attendance, Resident
             Supervision, and Documentation VA Medical
             Center Memphis, TN
04-00536-157 Administrative Investigation, Misuse of
6/24/05      Resources and Transit Beneﬁts VA Medical
             Center Chicago, IL
04-01580-167 Administrative Investigation, Conﬂict of
7/7/05       Interest and Misuse of Time Issues VA
             Medical Center Miami, FL
05-00114-177   Administrative Investigation, Inappropriate
7/22/05        Involvement in Arranging Disposition of VA
               Real Property VA Medical Center Mountain
               Home, TN
04-00616-203 Administrative Investigation, Appearance of
9/19/05      Preferential Treatment VA Medical Center
             Fayetteville, NC
05-01157-207   Administrative Investigation,
9/23/05        Noncompetitive Selection of Proposal,
               Partiality, and Misuse of Position, Ofﬁce of
               Research and Development, VHA Central
               Ofﬁce Washington, DC
TOTAL                         99 Reports                      $19,890,931,664   $18,846,391   $1,213,430




                                                   70
                                                   APPENDIX B


      STATUS OF OIG REPORTS UNIMPLEMENTED FOR OVER 1 YEAR
The Federal Acquisition Streamlining Act of 1994 provides guidance on prompt management
decisions and implementation of OIG recommendations. It states a Federal agency shall complete
ﬁnal action on each recommendation in an OIG report within 12 months after the report is ﬁnalized.
If the agency fails to complete ﬁnal action within this period, the OIG will identify the matter in its
semiannual report to Congress until the ﬁnal action is completed. This appendix summarizes the
status of OIG unimplemented reports and recommendations.

OIG requires that management ofﬁcials provide documentation showing the completion of corrective
actions on OIG recommendations. In turn, OIG reviews status reports submitted by management
ofﬁcials to assess the adequacy and timeliness of agreed-upon implementation actions. When a
status report adequately documents corrective actions, OIG closes the recommendation. If the actions
do not implement the recommendation, we continue to monitor progress.

The following chart lists the total number of unimplemented OIG reports and recommendations by
organization. It also provides the total number of unimplemented reports and recommendations
issued over 1 year ago (September 30, 2004, and earlier).

                Unimplemented OIG Reports and Recommendations

    VA                                                                                       Issued 9/30/04
                                        Total
   Ofﬁce                                                                                       and Earlier

                        Reports                 Recommendations                    Reports               Recommendations

    VHA                   54                           338                            9                        33
  A&MM                    88                           196                            0                        0
    VBA                    7                            24                            1                        2
    OM                     3                            13                            1                        3
   OI&T                    2                            24                            1                        8
  OHRA                     1                            14                            1                        14
   OPPP                    1                             3                            1                        3
  Totals                156*                          612                          14**                       63

* There are 152 total unimplemented reports, but 2 reports have actions for two or more ofﬁces.

** There are 11 total unimplemented reports over 1-year old, but 1 report has action for four ofﬁces.

Acquisition and Materiel Management (A&MM)

Ofﬁce of Information and Technology (OI&T)

Ofﬁce of Human Resources and Administration (OHRA)

Ofﬁce of Management (OM)

Ofﬁce of Policy, Planning, and Preparedness (OPPP)



                                                                71

OIG is particularly concerned with one report on VBA operations (issued in July 2000) and four
reports on VHA operations (two issued in 2002 and two in 2003) with recommendations that still
remain open. The following information provides a summary of reports over 1 year old with
open recommendations.

Veterans Beneﬁts Administration
Unimplemented Recommendations and Status

Report: Audit of the C&P Program’s Internal Controls at VARO St. Petersburg, FL, 99-00169-
97, 7/18/00

Recommendations: The Under Secretary for Beneﬁts should:

1. Establish a positive control Beneﬁts Delivery Network (BDN) system edit keyed to an
employee identiﬁcation number that ensures employee claims are adjudicated only at the
assigned regional ofﬁce of jurisdiction and prevents employees from adjudicating matters
involving fellow employees and veterans service ofﬁcers at their home ofﬁce.

2. Establish a BDN system ﬁeld for third-person authorization and a control to prevent release of
payments greater than $15,000 without the third-person authorization.

Status: As of September 30, 2005, 2 of 26 recommendations remain unimplemented pending
VBA actions. Both open recommendations are tied to implementation of the VETSNET Award
application. VETSNET is a combination of applications being deployed to replace the current
Beneﬁts Delivery Network. VETSNET Award implementation is slated for December 2006. As
for recommendation 2, VBA established an interim C&P large-payment review process in 2001.
                                          **********

Veterans Health Administration
Unimplemented Recommendations and Status

Report: Healthcare Inspection, Patient Care Issues, VA Hudson Valley Health Care System,
Franklin Delano Roosevelt Campus, Montrose, NY, 02-02374-08, 10/18/02

Recommendation: The VISN Director should ensure that the VA Hudson Valley Health Care
System Director brings the Franklin Delano Roosevelt campus Residential Care Program into
compliance with VHA policy by ensuring that all VA-sponsored homes meet all State and local
requirements.



                                               72

Status: As of September 30, 2005, there are 5 veterans residing in 1 unlicensed community
residential care home, as compared to 182 veterans in 28 unlicensed homes on October 1, 2002.
If the license is not received by November 2005, the Health Care System will consider relocating
the remaining veterans.
                                           **********
Report: Healthcare Inspection, Evaluation of the VHA’s Contract Community Nursing Home
(CNH) Program, 02-00972-44, 12/31/02

Recommendations: The Under Secretary for Health needs to ensure that:
  1. VHA medical facility managers devote the necessary resources to adequately administer the
     CNH program.
  2. VHA medical facility managers emphasize the need for CNH review teams to access and
     critically analyze external reports of incidents of patient abuse, neglect, and exploitation,
     and to increase their efforts to collaborate with state ombudsman ofﬁcials.
  3. Coordinate efforts with the Under Secretary for Beneﬁts to determine how VHA CNH
     managers and VBA ﬁduciary and ﬁeld examination employees can most effectively
     complement each other and share information such as medical record competency notes,
     on-line survey certiﬁcation and reporting data, and VBA reports of adverse conditions, to
     protect the ﬁnancial interests of veterans receiving health care and VA-derived beneﬁts.

Status: As of September 30, 2005, 3 of 11 recommendations remain unimplemented pending
actions by the VHA Chief Consultant for Geriatrics and Extended Care. Information technology
issues have prevented ﬁnalizing the CNH Education and CNH Certiﬁcation Report Web sites.
Also, the VHA Chief Consultant for Geriatrics and Extended Care plans to develop summary
CNH status reports that will be provided to senior VHA managers.
                                           **********
Report: Audit of VHA’s Part-Time Physician Time and Attendance, 02-01339-85, 4/23/03

Recommendation 1: To improve physician timekeeping, we recommend that the Under
Secretary for Health:
  •	 Determine what reforms are needed to ensure VA physician timekeeping practices are
     effective in an academic medicine environment and VA physicians are paid only for time
     and service actually provided.
  •	 Recommend statutory or regulatory changes needed to implement the reforms and publish
     appropriate policy and guidance.
  •	 Provide continuing timekeeping education to supervisors, physicians, and timekeepers.
  •	 Evaluate appropriate technological solutions that will facilitate physician timekeeping.



                                                 73

  •	 Establish appropriate training modules, making best use of technological solutions, for 

     training VHA managers, VA physicians, and timekeepers in timekeeping requirements, 

     responsibilities, and procedures.


Recommendation 2: To better align physician stafﬁng with patient care workload, we
recommend that the Under Secretary for Health:
  •	 Publish policy and guidance that incorporates the use of workload analysis to determine
     the number of physicians needed to provide timely, cost effective, and quality service to
     veterans seeking care from VA.
  •	 Require VAMCs to review their stafﬁng structures (such as part-time, full-time, intermittent,
     or fee basis) and determine if these appointments are appropriate to the needs of the medical
     center.
  •	 Evaluate alternative methods to acquire physician services and publish national guidance
     to assist VISN and VAMC directors in determining the best strategies for their regional,
     academic, and patient care circumstances.
  •	 Publish guidance describing how VISN and VAMC managers should determine, monitor,
     and communicate the allocation of physician time among patient care, administrative duties,
     academic training, and medical research.

Status: As of September 30, 2005, 9 of 17 recommendations remain unimplemented pending
actions by a number of VHA staff ofﬁces.

Recommendation 1. VHA has explored ways to create a time and attendance system that
meets the needs of VA in providing patient care while at the same time allowing ﬂexibility in
scheduling for those part-time physicians who need such accommodations. VHA has submitted
revised policies to the Ofﬁce of Human Resources Management for national release, which
is expected to occur in October 2005. Five VA medical centers have been testing the new
policies together with supporting software changes to the Enhanced Time & Attendance System.
Concurrently, the Employee Education System has developed a training module to assist the
ﬁeld when national implementation of the new policies becomes mandated. A period of 60 to 90
days will be needed after the issuance of the policies to allow installation and debugging of the
software at all facilities and completion of necessary training. Once that has been completed, the
policies will be mandatory for all VHA facilities.

Recommendation 2. VA has developed a proposed policy to meet this stafﬁng requirement. It
relates stafﬁng levels and staff mix to patient outcomes and other performance measures. V A’s
goal is to develop information management strategies that permit analysis of the relationships
between stafﬁng numbers, mix, care delivery models, and patient outcomes for multiple points
of care. Projects currently underway will be used to develop a standardized evidence-based
approach to stafﬁng plans and use such information to provide high-quality patient care in the
most efﬁcient manner possible. Systems for the collection and analysis of this information will
be developed in phases over a 4-year period and will be in place by September 30, 2009. OIG


                                               74

continues to work with VHA to review its proposed policy due to concerns over compliance with
the intent of Public Law 107-135, particularly with respect to:
  •	 National standards for nurse stafﬁng.
  •	 The length of time VHA projects to establish a complete set of stafﬁng standards.

Questions remain over the need to develop new data systems versus using existing data resources
such as Decision Support System (DSS) in a consistent manner.
                                             **********
Report: Healthcare Inspection, Evaluation of VHA Homemaker and Home Health Aide
Program, 02-00124-48, 12/18/03

Recommendations: We recommend that the Under Secretary for Health issue a policy to
replace expired VHA Directive 96-031 and provide additional guidance requiring that:
  •	 Patients receive thorough initial interdisciplinary assessments prior to placement in the 

     program.

  •	 Patients receiving Homemaker and Home Health Aide services meet clinical eligibility 

     requirements.


Status:As of September 30, 2005, two of four recommendations remain unimplemented pending
actions by the VHA Chief Consultant for Geriatrics and Extended Care to ﬁnalize the Home
Health Care Program Administration handbook and implement a Geriatrics and Extended Care
referral form. The VHA program ofﬁce has not provided a planned completion date to issue the
handbook that was ﬁrst drafted in January 2004, and the referral form is on hold at most sites.
                                             **********
Report: Healthcare Inspection, Survey of Efforts to Safeguard VA Potable and Waste Water
Systems, 03-01743-114, 3/18/04

Recommendation: The Under Secretary for Health, in conjunction with VISN directors,
needs to standardize water system security assessments and requirements using Environmental
Protection Agency (EPA)-recommended guidelines to ensure all VA medical facilities are
considering and applying similar safety measures.

Status: As of September 30, 2005, one of three recommendations remains unimplemented
pending actions by the VHA Environmental Engineering Ofﬁce. VHA anticipates issuing a
directive on improving the security of water systems on VHA properties by the end of the ﬁrst
quarter of 2006.
                                             **********




                                                 75

Report: Healthcare Inspection, VHA’s Community Residential Care (CRC) Program, 03-00391-
138, 5/3/04

Recommendations: The Under Secretary for Health needs to assure that appropriate VAMC
CRC program managers, inspection team members, or clinicians:
  •	 Conduct annual ﬁre safety inspections of CRC homes per Chief Network Ofﬁcer IL 10N-
     2000-02.
  •	 Give CRC caregivers instructions for managing patient care needs at the time of placement,
     and after hospitalizations and clinic visits, and document these discussions in the medical
     records.
  •	 Document that patients and families sign statements of agreement when accepting referrals
     to CRC services and programs not approved by VA.
  •	 Conduct and document annual discussions with VBA ﬁeld examination supervisors 

     regarding incompetent CRC patients, and take actions as appropriate. 


Status: As of September 30, 2005, 4 of 11 recommendations remain unimplemented pending
VHA actions, which included drafting required regulatory changes for Title 38, Code of
Federal Regulations. VHA issued handbook 1140.1 in March 2005, but did not address the last
recommendation involving discussions with VBA. The next handbook revision will address all
recommendations. The planned completion date is FY 2007.
                                           **********
Report: Healthcare Inspection, Evaluation of Quality Management in VHA Facilities, Fiscal
Year 2003, 03-00312-169, 7/14/04

Recommendation: The Acting Under Secretary for Health, in conjunction with VISN and
facility managers ensures all facilities have policies and have fully implemented processes for
“communication” to patients who have been injured by adverse events.

Status: The draft policy on “Disclosure of Adverse Events to Patients” has been completed and
the concurrence process is done. The document is ready for signature and anticipate signature no
later than October 2005.
                                           **********
Report: Healthcare Inspection, Evaluation of Nurse Stafﬁng in VHA Facilities, 03-00079-183,
8/13/04

Recommendations: The Under Secretary for Health, in conjunction with VISN and facility
managers, needs to take actions to:
  •	 Develop and oversee the implementation of a national nurse stafﬁng policy that applies a
     single stafﬁng methodology to generate consistent facility stafﬁng standards.
  •	 Identify speciﬁc data elements and systems that will be used.
                                                76
  •	 Ensure appropriate data validation and database maintenance.
  •	 Ensure that data systems, such as DSS and the nursing package, are complimentary,
     consistent, and used by nurse managers in making decisions regarding stafﬁng levels and
     stafﬁng mix.
  •	 Design a process to ensure the efﬁcient and appropriate management of nurse stafﬁng 

     resources.

  •	 Involve staff nurses in stafﬁng decisions.
  •	 Design a process to systematically measure the impact of nurse stafﬁng issues on patient
     care outcomes.
  •	 Develop and implement a process to ensure that direct patient care assignments offer 

     opportunities similar to non-patient care assignment. 

  •	 Evaluate the effectiveness of recruitment and retention practices.
  •	 Monitor overtime use in accordance with Public Law 107-135. VHA will need to rely on
     data collected at the facility level until enhancements to the pay system are accomplished.
  •	 Conduct a study to assess the impact of overtime, ﬂoating, and tour of duty changes on
     nurse job satisfaction, recruitment, and retention. In the course of study, determine whether
     safe limits on the use of these measures should be set and monitored.

Status: As of September 30, 2005, 11 of 14 recommendations remain unimplemented pending
VHA actions.

Recommendations 1-6. See VHA actions that address the stafﬁng issue in the above OIG Audit
of VHA’s Part-Time Physician Time and Attendance, 02-01339-85, 4/23/03.

Recommendation 7. In 2002, VHA approved funding for the VA Nursing Outcomes Database
project to collect data related to nurse-sensitive indicators of quality and integrated it into a
national database. The project continues to evolve and the planned completion date remains
the end of 2009. The project includes a pilot project at 12 acute care VA facilities that ended in
June 2004. It established reliable data collection methods for obtaining quality indicators that
impact patient outcomes. The plan is to expand indicator development to geriatrics and extended
care, mental health and ambulatory care over the next 3 to 5 years. The goal is to have a system
rollout of the data collection processes and indicators to all acute care sites by the end of
FY 2009.

Recommendation 8. The Ofﬁce of Nursing Services created a task force in FY 2003 that
included an assessment and analysis of current trends and structures that deﬁne nursing
performance. The task force is reﬁning drafts of four proposed career paths and will need to
address a potential additional grade legislatively.

Recommendation 9. A VA nurse outcomes report is being prepared that looks at the 5-year
outcomes study of nurses who have participated in VHA Employee Incentive Scholarship
                                                  77

Program/National Nurse Education Initiative programs. Scholarships and tuition reimbursement
are strong recruitment and retention tools and this report is designed to analyze VHA outcomes.
There were delays in the contracting process with a ﬁnal report not expected until early 2006.

Recommendation 10. VAMCs have been manually collecting overtime data for the third and
fourth quarters of FY 2005. A ﬁnal report will be prepared in early second quarter of FY 2006.

Recommendation 11. The National Center for Organizational Development has analyzed data
from the most recent VHA all-employee surveys to that of the all-employee survey results
from the 10 facilities that OIG originally surveyed. Preliminary results indicate that there is no
statistical signiﬁcance difference between the 10 facilities and the universe surveyed. Action
awaits the review of the overtime data currently being manually collected.
                                           **********

Ofﬁce of Human Resources and
Administration
Unimplemented Recommendations and Status

Report: Follow-up Audit of Department of Veterans Affairs Workers’ Compensation Program
(WCP) Cost, 02-03-56-182, 8/13/04

Recommendations: The Assistant Secretary for Human Resources and Administration take the
following actions to strengthen VA’s WCP and reduce unnecessary program costs:
  •	 Establish a centralized Department-wide program management and oversight process to
     proactively address WCP case management deﬁciencies and reduce the risk for program
     abuse, fraud, and unnecessary costs. This should include:
     �	 Developing performance criteria to measure WCP case management effectiveness.
     �	 Evaluating adequacy of compliance with WCP performance criteria.
     �	 Identifying performance deﬁciencies that require corrective action.
  •	 Ensuring that responsible WCP ofﬁcials and staff are held accountable for implementing
     required case management enhancements and meeting performance criteria.
  •	 Ensure that adequate staff resources are available to complete necessary WCP case
     management actions throughout VA in a timely manner. Stafﬁng guidelines and training
     requirements should be developed to help identify needed stafﬁng levels and training to
     provide the skills needed to effectively perform WCP assigned duties
  •	 Ensure that the Department’s WCP case management process includes the following key
     requirements:
     �	 Establish and maintain a VA case ﬁle on all open/active claims.

                                                78
    �	 Provide timely follow up actions on all open/active claims.
    �	 Make a job offer if a claimant has work capacity.
  •	 Monitor the extent of facility WCP claims involving violent patient incidents and coordinate
     with VHA on appropriate actions needed to address the safety of employees in their work
     areas.
  •	 Coordinate with individual Department elements to conduct a one-time review of all open/
     active WCP cases to prioritize and identify those cases where additional case management
     efforts could return employees back to work or otherwise remove them from the WCP rolls.
     Provide the IG with the results for oversight review. (Repeat recommendation from the
     1998 IG WCP audit.)
  •	 As part of the one-time review, emphasize the need for WCP case managers to identify and
     report potential program fraud to the IG. Ensure that the IG handbook on case management
     and fraud detection and other fraud related information that can be found on our web site at
     http://www.va.gov/oig/52/wcp/wcp.htm is fully utilized in this review. Work with the IG to
     establish a Web based fraud referral process, including referral criteria.
  •	 Collect Continuation of Pay (COP) information and use as a management tool to monitor
     WCP cost trends and employee health and safety issues. (Repeat recommendation from the
     1998 IG WCP audit.)
  •	 Collect information on Department actions to controvert COP and/or dispute claims and use
     as a management tool monitor WCP cost trends, and employee health and safety issues, and
     to evaluate the effectiveness of Department efforts to identify questionable claims and avoid
     unnecessary WCP related costs.
  •	 Initiate dialog with Department of Labor to discuss opportunities where both organizations
     could beneﬁt from improved coordination/support in the delivery of WCP beneﬁts to
     Department employees.

Status: As of September 30, 2005, all but one recommendation remain unimplemented pending
VA actions. A Workers’ Compensation Strategic Planning Committee was formed in October
2004, and a strategic plan was approved in February 2005 that consists of ﬁve strategic goals:
  •	 Case management.
  •	 Return to work.
  •	 Education.
  •	 Partnerships.
  •	 Identifying and reducing fraud, waste, and abuse.

The Strategic Planning Committee meets monthly to review progress toward meeting the
goals, but has not provided a planned completion date. The ﬁnal two recommendations await
implementation of the new VA personnel/payroll system scheduled for implementation in
December 2008.
                                               79

                                          **********

Multiple Ofﬁce Action
Unimplemented Recommendations and Status

Report: Issues at VA Medical Center Bay Pines, Florida and Procurement and Deployment of
the Core Financial and Logistics System (CoreFLS), 04-01371-177, 8/11/04

Recommendation 1: The Under Secretary for Health needs to develop and implement
productivity standards for physicians as directed by Public Law 107-135.

Recommendation 2: The Assistant Secretary for Management should:
  •	 Initiate a review of all payments to BearingPoint to determine whether there were any 

     improper or erroneous payments for collections. 

  •	 If the discounts offered for Phase IV work and/or the award fee cannot be recovered, take
     appropriate administrative action against the responsible VA personnel.
  •	 Conduct a complete review of all travel vouchers submitted by BearingPoint since
     commencing work in January 2000 to determine if the claimed costs are allowable in
     accordance with the provisions of the Joint Travel Regulations, coordinate ﬁndings with the
     OIG, collect any amounts found to be in excess of those allowable under regulations, clarify
     return home allowable expenses, and check rebates.

Recommendation 3: The Assistant Secretary for Policy, Planning, and Preparedness should:
  •	 Include in the VA Directive and Handbook 0710 currently being amended, a requirement for
     the Ofﬁce of Cyber and Information Security to be the approving authority for sensitivity
     designations for non-VA employees with access to VA systems.
  •	 Initiate the process of including an approval signature block on VA Form 2280 for the Ofﬁce
     of Cyber and Information Security approval of the sensitivity designation recommended by
     VA organization unit sponsoring the non-VA employees.
  •	 Take interim action to ensure that recommendations 3a and 3b are implemented pending the
     completion of the revised VA Directive and Handbook 0710.

Recommendation 4: Other implementation actions under this recommendation are suspended
pending decisions on future CoreFLS activities. VA management expects to make a decision on
how, or whether, to proceed with CoreFLS during the ﬁrst quarter of FY 2006.

Status: As of September 30, 2005, 15 of 66 recommendations remain unimplemented pending
actions by a number of VA staff ofﬁces.



                                               80

Recommendation 1. See VHA actions that address the stafﬁng issue in the above OIG Audit of
VHA’s Part-Time Physician Time and Attendance, 02-01339-85, 4/23/03.

Recommendation 2. The Ofﬁce of Management continues to review expenditures made to the
CoreFLS vendors and review all travel expenditures submitted by the vendor, and will consider
the issue of discounts for Phase IV work and/or award fee within the context of OIG’s continuing
investigation of this matter

Recommendation 3. Federal Information Processing Standards Publication 201 (FIPS 201),
issued in February 2005, mandates that all departments be able to implement identity prooﬁng
and issuance process by October 2005, and begin issuing personal identiﬁcation veriﬁcation
cards by October 2006. Furthermore, OMB has requested completion of a national rollout by
September 30, 2008. VA’s implementation of FIPS 201 requirements is anticipated to correct
concerns about background checks and contract employees as presented in the OIG report, but
OMB has not ﬁnalized this issue.




                                              81

Blank Page




       82

                                    APPENDIX C


          INSPECTOR GENERAL ACT REPORTING REQUIREMENTS

The table below cross-references the speciﬁc pages in this semiannual report to the reporting
requirements where they are prescribed by the Inspector General Act of 1978 (Public Law 95-
452), as amended by the Inspector General Act Amendments of 1988 (Public Law 100-504), and
the Omnibus Consolidated Appropriations Act of 1997 (Public Law 104-208). 


   IG Act            Reporting Requirement                                           Page
References
Section 4 (a) (2)    Review of legislation and regulations                                52
Section 5 (a) (1)    Signiﬁcant problems, abuses, and deﬁciencies                        1-55
Section 5 (a) (2)    Recommendations with respect to signiﬁcant                          1-55
                     problems, abuses, and deﬁciencies
Section 5 (a) (3)    Prior signiﬁcant recommendations on which                             71
                     corrective action has not been completed                         (App. B)
Section 5 (a) (4)    Matters referred to prosecutive authorities and                        5
                     resulting prosecutions and convictions
Section 5 (a) (5)    Summary of instances where information was                            84
                     refused                                                          (App. C)
Section 5 (a) (6)    List of audit reports by subject matter, showing dollar value      61-70
                     of questioned costs and recommendations that funds be            (App. A)
                     put to better use
Section 5 (a) (7)    Summary of each particularly signiﬁcant report                     21-47
Section 5 (a) (8)    Statistical tables showing number of reports and                      85
                     dollar value of questioned costs for unresolved,                 (Table 1)
                     issued, and resolved reports
Section 5 (a) (9)    Statistical tables showing number of reports and dollar value of     86
                     recommendations that funds be put to better use for unresolved, (Table 2)
                     issued, and resolved reports
Section 5 (a) (10)   Summary of each audit report issued before this reporting period 71-81
                     for which no management decision was made by end of               (App. B)
                     reporting period
Section 5 (a) (11)   Signiﬁcant revised management decisions                              84
                                                                                      (App. C)
Section 5 (a) (12)   Signiﬁcant management decisions with which                           84
                     the Inspector General is in disagreement                         (App. C)
Section 5 (a) (13)   Information described under section 5(b) of the Federal Financial 84
                     Management Improvement Act of 1996 (Public Law 104-208)          (App. C)




                                             83

INSPECTOR GENERAL ACT REPORTING REQUIREMENTS (CONT’D)
Prior Signiﬁcant Recommendations Without Corrective Action and
Signiﬁcant Management Decisions

The IG Act requires identiﬁcation of: (i) signiﬁcant revised management decisions, and (ii)
signiﬁcant management decisions with which the OIG is in disagreement. During this 6-month
period, there were no reportable instances under the Act.

Obtaining Required Information or Assistance

The IG Act requires the OIG to report instances where access to records or assistance requested
was unreasonably refused, thus hindering the ability to conduct audits or investigations. During
this 6-month period, there were no reportable instances under the Act.

Federal Financial Management Improvement Act of 1996 (Public Law
104-208)

The IG Act requires OIG to report instances and reasons when VA has not met the intermediate
target dates established in the VA remediation plan to bring VA’s ﬁnancial management
system into substantial compliance with the requirements of Public Law 104-208. VA halted
development of a new ﬁnancial management system in 2004. The Department has not
established new target dates.

Reports Issued Before this Reporting Period Without a Management
Decision Made by the End of the Reporting Period

The IG Act requires a summary of audit reports issued before this reporting period for which
no management decision was made by the end of the reporting period. There were no internal
OIG reports unresolved for over 6 months. However, there were 50 OIG contract review reports
unresolved because a contracting ofﬁcer decision has not been made for over 6 months. Thirty-
ﬁve of these reports have actions by the National Acquisition Center contracting ofﬁcers and the
remaining 15 reports have actions by VAMC/VISN contracting ofﬁcers. These contract review
reports were issued before the start of this semiannual reporting period and will be closed after
the OIG receives the contracting ofﬁcer price negotiation memorandum following contract
awards.

Statistical Tables 1 and 2 Showing Number of Unresolved Reports

As required by the IG Act, Tables 1 and 2 provide statistical summaries of unresolved and
resolved reports for this reporting period. Speciﬁcally, they provide summaries of the number of
OIG reports with potential monetary beneﬁts that were unresolved at the beginning of the period,
the number of reports issued and resolved during the period with potential monetary beneﬁts, and
the number of reports with potential monetary beneﬁts that remained unresolved at the end of the
period.



                                               84

Table 1: Resolution Status Of Reports With Questioned Costs

                                                                                  Dollar Value
                     RESOLUTION STATUS                              Number
                                                                                  (In Millions)
 No management decision by 3/31/05                                     0               $0

 Issued during reporting period                                       12              $1.2

   Total inventory this period                                        12             $1.2

 Management decisions during the reporting period.

 Disallowed costs (agreed to by management)                           12              $1.2

 Allowed costs (not agreed to by management)                           0               $0

   Total Management Decisions This Reporting Period                   12             $1.2

   Total Carried Over To Next Period                                   0               $0


Questioned Costs

For audit reports, it is the amounts paid by VA and unbilled amounts for which the OIG
recommends VA pursue collection, including Government property, services or beneﬁts provided
to ineligible recipients; recommended collections of money inadvertently or erroneously paid
out; and recommended collections or offsets for overcharges or ineligible costs claimed.

For contract review reports, it is contractor costs OIG recommends be disallowed by the
contracting ofﬁcer or other management ofﬁcial. Costs normally result from a ﬁnding that
expenditures were not made in accordance with applicable laws, regulations, contracts, or other
agreements; or a ﬁnding that the expenditure of funds for the intended purpose was unnecessary
or unreasonable.

Disallowed Costs

Disallowed Costs are costs that contracting ofﬁcers or management ofﬁcials have determined
should not be charged to the Government and which will be pursued for recovery; or on which
management has agreed that VA should bill for property, services, beneﬁts provided, monies
erroneously paid out, overcharges, etc. Disallowed costs do not necessarily represent the actual
amount of money that will be recovered by the Government due to unsuccessful collection
actions, appeal decisions, or other similar actions.

Allowed Costs

Allowed Costs are amounts on which contracting ofﬁcers or management ofﬁcials have
determined that VA will not pursue recovery of funds.

                                               85

Table 2: Resolution Status Of Reports With Recommended Funds To
Be Put To Better Use By Management

                                                                                   Dollar Value
                       RESOLUTION STATUS                             Number
                                                                                   (In Millions)
   No management decision by 3/31/05                                    54          $1,166.6

   Issued during reporting period                                       56          $19,890.9

     Total inventory this period                                       110         $21,057.5

   Management decisions during the reporting period

   Agreed to by management                                              45          $19,819.3

   Not agreed to by management                                          7              $5.1

     Total Management Decisions This Reporting Period                  52          $19,824.4

     Total Carried Over To Next Period                                 58           $1,233.1


Deﬁnitions:
Recommended Better Use of Funds

For audit reports, it represents a quantiﬁcation of funds that could be used more efﬁciently if
management took actions to complete recommendations pertaining to deobligation of funds,
costs not incurred by implementing recommended improvements, and other savings identiﬁed in
audit reports.

For contract review reports, it is the sum of the questioned and unsupported costs identiﬁed in
preaward contract reviews which the OIG recommends be disallowed in negotiations unless
additional evidence supporting the costs is provided. Questioned costs normally result from
ﬁndings such as a failure to comply with regulations or contract requirements, mathematical
errors, duplication of costs, proposal of excessive rates, or differences in accounting
methodology. Unsupported costs result from a ﬁnding that inadequate documentation exists to
enable the auditor to make a determination concerning allowability of costs proposed.

Dollar Value of Recommendations Agreed to by Management

Dollar Value of Recommendations Agreed to by Management provides the OIG estimate of
funds that will be used more efﬁciently based on management’s agreement to implement actions,
or the amount contracting ofﬁcers disallowed in negotiations, including the amount associated
with contracts that were not awarded as a result of audits.


                                               86

Dollar Value of Recommendations Not Agreed to by Management

Dollar Value of Recommendations Not Agreed to by Management is the amount associated
with recommendations that management decided will not be implemented, or the amount of
questioned and/or unsupported costs that contracting ofﬁcers decided to allow.




                                            87

Blank Page




       88

                                          APPENDIX D


                 VA OIG PERFORMANCE REPORT FY 2005
Overview of FY 2005 Accomplishments

OIG is resolved to ensure VA programs and operations are efﬁciently and effectively managed, and
free of criminal activity, waste, and abuse. Over the next 5 years, OIG will focus on examining
major management challenges and high-risk areas facing VA within ﬁve strategic goals: health
care delivery, beneﬁts processing, ﬁnancial management, procurement practices, and information
management.

Presented here are the results of our efforts in FY 2005 against the planned goals. Our performance
goals and results are transitioning from the OIG Strategic Plan 2001-2006. Overall, we planned a
total of 70 annual performance goals; we accomplished 61 (87 percent). Nine goals were carried
over to FY 2006 due to competing demands on resources. The chart below illustrates our increased
performance levels. OIG’s new FY 2005-2010 Strategic Plan is available on our website:
http://www.va.gov/oig.



                              Annual Goals Accomplished



                         FY 2004                                  FY 2005
                                                       70
    70
                                                                61
    60
           52

    50             45

    40

    30

    20
                                                                         9
    10
                             4        3
                                                                                   0

         Total Achieved Carried Not                    Total Achieved Carried Not
         Goals           Over Achieved                 Goals           Over Achieved




                                                 89

Blank Page




      90

                                                   APPENDIX E



                    OIG OPERATIONS PHONE LIST
Investigations
Headquarters Investigations Washington, DC ....................................................(202) 565-7702


Northeast Field Ofﬁce (51NJ) Newark, NJ ..........................................................(973) 297-3338


        Boston Resident Agency (51BN) Bedford, MA ............................................... (781) 687-3138


        New York Resident Agency (51NY) New York, NY .......................................... (212) 951-6850


        Pittsburgh Resident Agency (51PB) Pittsburgh, PA ............................................(412) 784-3788


        Washington Resident Agency (51WA) Washington, DC ......................................(202) 530-9191


Southeast Field Ofﬁce (51SP) Bay Pines, FL .................................................... (727) 319-1215


        Atlanta Resident Agency (51AT) Atlanta, GA ....................................................(404) 929-5950


        Columbia Resident Agency (51CS) Columbia, SC..............................................(803) 695-6707


        Nashville Resident Agency (51NV) Nashville, TN...............................................(615) 695-6373


        West Palm Beach Resident Agency (51WP) West Palm Beach, FL ........................(561) 422-7720


Central Field Ofﬁce (51CH) Chicago, IL............................................................ (708) 202-2676


        Denver Resident Agency (51DV) Denver, CO ................................................ (303) 331-7674


        Cleveland Resident Agency (51CL) Cleveland, OH ............................................(216) 522-7606


        Kansas City Resident Agency (51KC) Kansas City, KS .......................................(913) 551-1439


South Central Field Ofﬁce (51DA) Dallas, TX ..................................................... (214) 253-3360


        Houston Resident Agency (51HU) Houston, TX.................................................(713) 794-3652


        New Orleans Resident Agency (51NO) New Orleans, LA ....................................(504) 619-4342


Western Field Ofﬁce (51LA) Los Angeles, CA ................................................... (310) 268-4269


        Phoenix Resident Agency (51PX) Phoenix, AZ ..................................................(602) 627-3251


        San Diego Resident Agency (51SD) San Diego, CA ...........................................(619) 400-5326


        San Francisco Resident Agency (51SF) Oakland, CA .........................................(510) 637-6360


        Seattle Resident Agency (51SE) Seattle, WA................................................ (206) 220-6654

                ................................................................................................................ext 31





                                                                91

Healthcare Inspections


Central Ofﬁce Operations Washington, DC..........................................................(202) 565-8305


Healthcare Regional Ofﬁce Washington (54DC) Washington, DC ..................... (202) 565-8452


        Healthcare Regional Ofﬁce Atlanta (54AT) Atlanta, GA .................................. (404) 929-5961


        Healthcare Regional Ofﬁce Bedford (54BN) Bedford, MA ................................ (781) 687-2134


        Healthcare Regional Ofﬁce Chicago (54CH) Chicago, IL ................................. (708) 202-2672


        Healthcare Regional Ofﬁce Dallas (54DA) Dallas, TX ..................................... (214) 253-3330


        Healthcare Regional Ofﬁce Los Angeles (54LA) Los Angeles, CA...................... (310) 268-3005


Audit
Central Ofﬁce Operations Washington, DC..........................................................(202) 565-4625


Central Ofﬁce Operations Division (52CO) Washington, DC .................................(202) 565-4434


Contract Review and Evaluation Division (52C) Washington, DC .........................(202) 565-4818


Financial Audit Division (52CF) Washington, DC ..................................................(202) 565-7913


        Information Technology Division (52IT) Washington, DC ............................... (202) 565-5826


        Veterans Health and Beneﬁts Division (52VH) Washington, DC ....................... (202) 565-8447


        Atlanta Audit Operations Division (52AT) Atlanta, GA .................................... (404) 929-5921


        Bay Pines Audit Operations Division (52SP) Bay Pines, FL .............................. (727) 395-2422


        Bedford Audit Operations Division (52BN) Bedford, MA ................................. (781) 687-3120


        Chicago Audit Operations Division (52CH) Chicago, IL ................................... (708) 202-2667


        Dallas Audit Operations Division (52DA) Dallas, TX ....................................... (214) 253-3300


        Austin Residence (52AU) Austin, TX ........................................................... (512) 326-6216


        Kansas City Audit Operations Division (52KC) Kansas City, MO ....................... (816) 426-7100


        Los Angeles Audit Operations Division (52LA) Los Angeles, CA ....................... (310) 268-4335


        Seattle Audit Operations Division (52SE) Seattle, WA ................................... (206) 220-6654





                                                        92

                    APPENDIX F

                     GLOSSARY
C&P       Compensation and Pension
CAP       Combined Assessment Program
CFS       Consolidated Financial Statement
DAS       Data Analysis Section
DEA       Drug Enforcement Administration
DIC       Dependency and Indemnity Compensation
DOL       Department of Labor
FFMIA     Federal Financial Management Improvement Act
FISMA     Federal Information Security Management Act of 2002
FOIA/PA   Freedom of Information Act/Privacy Act
FSS       Federal Supply Schedule
FTE       Full-time Equivalent
FY        Fiscal Year
GSA       General Services Administration
HCS       Health Care System
HIPAA     Health Information Portability and Accountability Act of 1996
HUD       Department of Housing and Urban Development
IG        Inspector General
IT        Information Technology
MCCF      Medical Care Collection Fund
MCI       Master Case Index
NCA       National Cemetery Administration
NCIC      National Crime Information Center
OHI       Ofﬁce of Healthcare Inspections
OIG       Ofﬁce of Inspector General
OMB       Ofﬁce of Management and Budget
OPM       Ofﬁce of Personnel Management
PCIE      President’s Council on Integrity and Efﬁciency
QM        Quality Management
SSA       Social Security Administration
USMS      U.S. Marshals Service
USPIS     U.S. Postal Inspection Service
VA        Department of Veterans Affairs
VAMC      VA Medical Center
VARO      VA Regional Ofﬁce
VBA       Veterans Beneﬁts Administration
VHA       Veterans Health Administration
VISN      Veterans Integrated Service Network
VR&E      Vocational Rehabilitation and Employment
VSC       Veterans Service Center
WCP       Workers’ Compensation Program




                              93

Copies of this report are available to the public. Written requests should be sent to:
       Ofﬁce of the Inspector General (53B)

       Department of Veterans Affairs        

       810 Vermont Avenue, NW

       Washington, DC 20420


The report is also available on our website:
       http://www.va.gov/oig/53/semiann/reports.htm
For further information regarding VA OIG, you may call 202 565-8620.




Cover photo courtesy Department of Defense




                                            94
VA OIG Semiannual Report to Congress   September 30, 2005 - Vol. 54
Help VA’s Secretary ensure the integrity of departmental
operations by reporting suspected criminal activity, waste, or
abuse in VA programs or operations to the Inspector General
Hotline.


                  (CALLER CAN REMAIN ANONYMOUS)




To Telephone:            (800) 488-8244
                         (800) 488-VAIG
To FAX:                  (202) 565-7936

To Send
Correspondence:          Department of Veterans Affairs
                         Inspector General Hotline (53E)
                         P.O. Box 50410
                         Washington, DC 20091-0410

Internet Homepage:       http://www.va.gov/oig/hotline/hotline.htm

E-mail Address:          vaoighotline@mail.va.gov




                     Department of Veterans Affairs
                       Ofﬁce of Inspector General
                     Semiannual Report to Congress

                     April 1, 2005 - September 30, 2005
